App.30a

DECISION AND ORDER
OF THE U.S. DEPARTMENT OF LABOR
GRANTING RESPONDENT’S MOTION FOR
SUMMARY DECISION AND
ORDER DISMISSING COMPLAINT
(DECEMBER 16, 2016)
U.S. DEPARTMENT OF LABOR
Office of the Administrative Law Judges
11870 Merchants Walk-Suit 204
Newport News, VA 23606
In the Matter of:
MICHAEL B. BROWN,
Complainant,
v.
SYNOVUS FINANCIAL CORPORATION,
Respondent.
Case No.: 2015-SOX-00018
Before: Alan L. BERGSTROM,
Administrative Law Judge.
This case arises under the employee “whistle
blower” protection provisions of Section 806 (the
employee protection provision) of the Corporate and
Criminal Fraud Accountability Act of 2002, Title VIII
of the Sarbanes-Oxley Act of 2002, as amended (SOX),

App.31a

18 U.S.C.A. § 1514A and its implementing regulations
found at 29 CFR Part 1980 and Part 18, Subpart A.
Section 806 provides “whistleblower” protection to
employees of publicly traded companies against dis­
crimination by employers in the terms and conditions
of employment because of certain “protected activity”
by the employee. This complaint was referred to the
Office of Administrative Law Judges for formal hearing
upon appeal by Complainant of the April 24, 2015,
Occupational Safety and Health Administration de­
termination that there was no reasonable cause to
believe the Respondent violated the Complainant’s
rights under SOX.
By Order issued February 11, 2016 the formal
hearing scheduled to commence on May 24, 2016 was
re-scheduled to commence at 10:30 AM, Tuesday,
May 17, 2016, in Atlanta, Georgia. By Order dated
April 20, 2016, the May 17, 2016 formal hearing was
cancelled pending resolution of Respondent’s Motion
for Summary Decision.
PROCEDURAL HISTORY
On Thursday, July 3, 2014, Complainant, through
his counsel, filed a complaint of retaliation under SOX
with the Occupational Safety and Health Adminis­
tration (OSHA). The Complainant alleges that he
was employed by Respondent from November 19,
2007 through January 6, 2014, at which time his
employment as an Audit Manager was involuntarily
terminated. He alleges—
“On numerous occasions throughout his
employment, [the Complainant] complained
to his supervisors that they were preventing
him from thoroughly and accurately conduc-

App.32a

ting audits, altering audit work papers to
lessen the severity of his audit findings, and
blocking him from reporting matters requir­
ing immediate attention (MRIA) to manage­
ment. [The Complainant] reasonably believed
that these actions could mislead Synovus’
Board as to actual risks, materially affect
financial statements, and deceive investors.
When [the Complainant] reported his con­
cerns to management, he was met with
unwarranted performance-based criticism,
placed on unjustified Performance Improve­
ment Plan (PIP) and ultimately terminated,
in retaliation for his complaints.”
He also alleges he “was reassigned in retali­
ation for his audit findings to [S. Weekley’s]
team which was responsible for operations
audits—a less desirable assignment” . . . [and
in 2010, the Complainant’s] role of auditing
Finance areas was drastically reduced. . .
[and his] role in performing SOX controls
was substantially reduced to almost none.”
In support of his alleged protected activity, the Com­
plainant points to his work with the 2008 Tax Audit,
Tax Footnotes to the 2008 financial statements, the
2009 Melton Region Lending Audit, Fraud Risk
Assessment from late 2009 to mid-2010, the June
2011 Corporate Trust Audit, and the December 2013
Tax Audit.
On April 12, 2016, Respondent’s counsel filed
“Respondent Synovus Corp.’s Motion for Summary
Decision and Memorandum in Support” with extensive
attachments. Respondent seeks to have the complaint
dismissed and, in support thereof, submits that “this

App.33a
case is appropriate for summary decision ... for three
independent reasons, any one of which requires entry
of a summary decision for Synovus:
• Synovus made the decision to discharge [the
Complainant] substantially before the action
he identifies as his alleged protected activity,
and therefore he cannot prove that the alleged
protected activity contributed to his discharge.
• [The Complainant’s] now-claimed alleged pro­
tected activity, his pre-Christmas, late-night
submission of a routine workpaper on a tax
audit, was not, and was not perceived to be,
protected activity as defined by SarbanesOxley.
• Even if [the Complainant] could establish each
and every element of his claim on which he
bears the burden of proof, Synovus would have
terminated [the Complainant] for his longstand­
ing and persistent unsatisfactory performance
in the absence of any alleged protected activity.”
On April 12, 2016, Respondent’s counsel also
filed joint stipulations of the Parties that (l) the
Complainant began employment with Synovus as a
Senior Auditor on November 19, 2007 and became an
Audit Manager in 2008; and (2) the Complainant’s
last day of employment was January 6, 2014.
Respondent submits in its Motion that the
Complainant was placed on a Performance Improve­
ment Program (PIP) in December 2012 by S. Weekley
prior to a September 2013 decision to terminate the
Complainant’s employment. Respondent asserts that
the Complainant worked as an Audit Manager in
Respondent’s Internal Audit Department, which “is

App.34a

responsible for testing and evaluating Synovus’s
internal controls and processes (checks and balances
designed by management to ensure that objectives
are being met in accordance with all applicable stan­
dards) to ensure that they are adequate and func­
tioning to manage and mitigate risk ... it is not res­
ponsible for creating or reviewing Synovus’s external
financial reports (i.e., those reports filed with the
SEC)... [it] also does not perform testing for consumer
compliance, nor is it responsible for credit administra­
tive loan quality reviews; those functions are handled
by other departments with the proper expertise....
None of the work Internal Audit performs materially
affects Synovus’s SEC filings, filings with tax
agencies, or information provided shareholders.” Res­
pondent submits that the Complainant was placed on
the PIP for a “continued pattern of poor perfor­
mance” and that when the Complainant failed to
respond to continued counseling sessions, supervisor
feedback, and the PIP, a decision was made in Sep­
tember 2013 to terminate the Complainant’s employ­
ment at the end of 2013.
On May 17, 2016 Complainant’s counsel filed a
“Response to Motion for Summary Decision” with
supporting attachments. He submits that on November
30, 2012 the Complainant requested his name be
removed for the SOX controls audit report and that
the Complainant was placed on a 45-day PIP com­
mencing December 10, 2012, which he successfully
completed in January 2013 and continued with his
employment. He submits that during 2013 the
Complainant notified superiors and IT personnel of
problems uploading and adding files to the work
program ‘Paisley’ and with the program reflecting

App.35a

the actual dates of completion or modification. He
submits that in December 2013 Respondent identified
the Complainant as a low performer, based in part
on information from the “Paisley” program, during
the evaluation period and that the Complainant was
subsequently terminated upon his return from vacation
in January 2014. He submits that the “Complainant
received no written warnings and/or disciplinary
infractions following receipt of his 2012 PIP and thus
was unaware of any indication of potential termina­
tion.” He argues that Respondent “claims legitimacy
in terminating Complainant based on an improve­
ment plan, from a year prior, as a futile effort to
justify retaliating against Complainant for his
unwillingness to participate in potentially fraudulent
loan activity.” Complainant’s counsel argues that the
Complainant filed a work paper in December 2013 in
which he concluded, as an auditor, that 13 of 15
loans contained issues involving manipulation of the
loans to avoid downgrading the loan that could or
should preclude accruing interest and that the issues
impacted state and federal tax returns and could
impact on financial reporting. He argues that there is
a genuine issue of fact as to the objective reasonableness
of the complaint, when a decision to terminate the
Complainant was actually made, and the contributing
factor protected activity played in the decision to
terminate the Complainant’s employment.
On May 17, 2016, Respondent’s counsel filed a
“Supplement and Reply in Support of Respondent
Synovus Financial Corp.’s Motion for Summary
Decision” with attachments. She argues that the
“undisputed material facts compel entry of a summary
decision in its favor because the decision to terminate

i

IV/ J.X U y

VAVV

V ' X ,;\'X 111UX1W

alleged protected conduct.” She argues that the
Complainant’s alleged protected activity in 201.2 did
not contribute to the 2012 PIP; that his alleged pro­
tected activity in 2013 did not contribute to the deci­
sion to terminate his employment; that his alleged
December 2013 protected activity was after the decision
to terminate the Complainant’s employment had been
made, so it could not have contributed to that deci­
sion; and that Respondent would have discharged
the Complainant regardless of any protected activity.
She submits that a PIP is typically the last pre­
termination opportunity to correct unacceptable per­
formance and that the Complainant was explicitly
warned that termination may result from a failure to
maintain acceptable performance and that the reason
for Complainant’s termination of employment was
“Involuntary Termination Unsat PerfTViolation of Wrk
Rules.”- ■ ~ - -

STATUTORY AND REGULATORY FRAMEWORK
The evidence of record establishes that the above
captioned matter arose from the Parties’ actions in
Columbus, Georgia, which is within the jurisdictional
area of the U S. Court of Appeals for the Eleventh
Circuit. Accordingly, the judicial precedents of the U.S.
Court of Appeals for the Eleventh Circuit apply.
SOX, at 18 USC § 1514A, provides in pertinent
part:
(a).. . No company with a class of securities regis­
tered under section 12 of the Security Exchange
Act of 1934 ... or that is required to filed reports

App.37a
under section 15(d) of the Security Exchange Act
of 1934 ... or any officer, employee, contractor,
subcontractor, or agent of such company may
discharge, demote, suspend, threaten, harass, or
in any other manner discriminate against an
employee in the terms and conditions of employ­
ment because of any lawful act done by the
employee—
(1) To provide information, cause information
to be provided, or otherwise assist in an
investigation regarding any conduct the
employee reasonably believes constitutes a
violation of section 1341, 1343, 1344 or 1348,
any rule or regulation of the Securities and
Exchange Commission, or any provision of
Federal law relating to fraud against share­
holders, when the information or assistance
is provided to or the investigation is con­
ducted by(A) a Federal regulatory or law enforcement
agency;
(B) any member of Congress or any com­
mittee of Congress; or,
. (C) a person with supervisory authority over
the employee (or such other person
working for the employer who has the
authority to investigate, discover, or
. terminate misconduct); or
(2) To file, cause to be filed, testify, participate
in, or otherwise assist in a proceeding filed
or about to be filed (with any knowledge of
the employer) relating to an alleged violation
of section 1341, 1343, 1344 or 1348, any rule

App.38a

or regulation of the Securities and Exchange
Commission, or any provision of Federal
law relating to fraud against shareholders.
(b)
(2)
.(D)

. . . An action under paragraph (l) shall
be commenced not later than 180 days
after the date on which the violation
occurs, or after the date on which the
employee became aware of the violation.

Implementing federal regulations applicable to the
SOX at 29 CFR Part 1980 were revised as a final
rule effective March 5, 2015.1 These regulations pro­
vide, in pertinent part:
§ 1980.102 Obligations and prohibited acts.
(a) No covered person may discharge, demote,
suspend, threaten, harass or in any other manner
retaliate against, including, but not limited to,
intimidating, threatening, restraining, coercing,
blacklisting or disciplining, any employee with
respect to the employee’s compensation, terms,
conditions, or privileges of employment because
the employee ... has engaged in any of the activ­
ities specified in . . . this section.
(b) An employee is protected against retaliation
... by a covered person for any lawful act done
by the employee:
(l) To provide information, cause information
to be provided, or otherwise assist in an
1 Fed. Reg., Vol 80, No.43, 11865-11885 (Mar. 5, 2015)

T .

I
u

App.39a

investigation regarding any conduct the
employee reasonably believes constitutes a
violation of 18 U.S.C. 1341, 1343, 1344 or
1348, any rule or regulation of the Securities
and Exchange Commission, or any provision
of Federal law relating to fraud against
shareholders, when the information or
assistance is provided to or the investigation
is conducted by-

(i)

a Federal regulatory or law enforcement
agency;

(ii) any member of Congress or any com­
mittee of Congress; or,
(iii) a person with supervisory authority over
the employee (or such other person
working for the employer who has the
authority to investigate, discover, or ter­
minate misconduct); or
(2) To file, cause to be filed, testify, participate
in, or otherwise assist in a proceeding filed
or about to be filed (with any knowledge of
the employer) relating to an alleged violation
of 18 U.S.C. 1341, 1343, 1344 or 1348, any
rule or regulation of the Securities and
Exchange Commission, or any provision of
Federal law relating to fraud against
shareholders.
§ 1980.109 Decision and orders of the adminis­
trative law judge.
(a) ... A determination that a violation has
occurred may be made only if the complainant has
demonstrated by a preponderance of the evidence

App.36a

[the Complainant’s] employment resulted from his
i nt'At

n/mw

nnv

IX v»trv> * .i j tnri

fo 111 r* red

n r»f ■prr^vs

App.40a

that protected activity was a contributing factor
in the adverse action alleged in the complaint.
(b) If the complainant has satisfied the burden
set forth in the prior paragraph, relief may not
be ordered if the respondent demonstrates by
clear and convincing evidence that it would have
taken the same adverse action in the absence of
any protected activity.
To prove unlawful retaliation at a formal hearing
under SOX, the Complainant must prove by a pre­
ponderance of the evidence (l) that the Complainant
engaged in the described protected activity, (2) that
an appropriate Respondent supervisor, or otherwise
authorized employee, had knowledge of the described
protected activity, (3) that the Complainant was sub­
jected to an adverse personnel action amounting to
discharge or retahation with respect to compensation,
terms, conditions, or privileges of employment, and
(4) that the protected activity was a contributing
factor in the adverse employment action. 18 U.S.C.
§ 1514(a); 29 CFR § 1980.109(a); Palmer v. Canadian
National Railway, ARB Case No. 16-035, 2016 WL
6024269, ALJ Case No. 2014-FRS-00154 (ARB Sep.
30, 2016)2 SOX “requires an employee demonstrate
both a subjective [good faith] belief and an objectively
2 In Palmer the ARB reversed Fordham v. Fannie Mae, ARB
No. 12-061, 2014 WL 5511070, ALJ No. 2010-SOX-51 (ARB Oct.
9, 2014) and restated it had previously vacated Powers v. Union
Pacific Railroad Co., ARB Case No. 13-034, 2014 WL 5511088,
ALJ No. 2010-FRS-30 (ARB Oct. 17, 2014), reissued remand en
banc, 2015 WL 1876029 (ARB April 21, 2015), remand vacated
en banc, 2016 WL 4238457 (ARB May 23, 2016). The ARB
declared that it is legal error to follow the Fordham and Powers
decisions.

App.41a

reasonable belief that the company’s conduct violated
a law listed in [§ 1514A(a)(l)]. A subjective belief
means that the employee ‘actually believed the conduct
complained of constituted a violation of pertinent
law’” Gale v. U.S. Dept ofLabor, 384 Fed. Appx. 926,
930 (llth Cir. 2010) unpub, citing Welch v. Chao,
536 F.3d 269 at 277 n. 4 (4th Cir. 2008); 80 Fed. Reg.
11867-11868 (Mar. 5, 2015) Protected activity is a
contributing factor if “the protected activity, alone or
in combination with other factors, affected in some
way the outcome of the employer’s decision.” 80 Fed.
Reg. 11870 (Mar. 5, 2015) If the employee does not
prove any one of the required elements by a pre­
ponderance of the evidence, the entire complaint fails
and warrants dismissal. Coryell v. Arkansas Energy
Services, LLG, No. 12-033, 2013 WL 1934004, *3 (ARB
Apr. 25, 2013)
Additionally, relief under SOX may not be ordered
if the respondent (its contractor or subcontractor or
agent) demonstrates by clear and convincing evidence
that it would have taken the same adverse action in
the absence of any protected activity.3 29 CFR
§ 1980.109(b); Palmer, supra; Formella v. U.S. Dept
of Labor, 628 F.3d 381 (7th Cir. 2010) “Clear and
convincing evidence is ‘evidence indicating that the
thing to be proved is highly probable or reasonably
certain.’” Coryell, supra, quoting Warren v. Custom
Organics, No. 10-092, 2012 WL 759335, *5 (ARB Feb.
29, 2012); Klosterman v. E.J. Davies, Inc., No. 12035, 2013 WL 143761 (ARB Jan. 9, 2013) “‘Clear’ evi­
dence means the respondent has presented evidence of
unambiguous explanations for the adverse action in
3 Renamed the “same-action defense” by the ARB in Palmer, supra.

App.42a

question. ‘Convincing’ evidence has been defined as
evidence demonstrating that a proposed fact is
‘highly probable.’ . . . ‘clear and convincing evidence’
[is] evidence that suggests a fact is ‘highly probable’
and immediately tilts’ the evidentiary scales in one
direction.” Speegle v. Stone & Webster Construction,
Inc., ARB Case No. 13-074, 2014 WL 1870933, *6 (Apr.
25, 2014) citing Colorado v. New Mexico, 467 U.S.
310, 316 (1984).
The described conduct which constitutes the
alleged violation must have already occurred or be in
the progress of occurring based on circumstances
that the Complainant observes and reasonably believes
at the time the information or the complaint was pro­
vided. Livingston v. Wyeth, Inc., 520 F.3d 344 (4th Cir.,
2008); Welch, supra; see also Henrich v. ECOLAB,
Inc., ARB No. 05-030, ALJ Case No. 04-SOX-51 (ARB,
June 29, 2006); Getman v. Southwest Sec., Inc., ARB
No. 04-059, ALJ No. 2003-SOX-8 (ARB, July 29, 2005)
While the Complainant need not cite a code section
he believes was violated in his communication to the
supervisor or other individual authorized to investi­
gate and correct misconduct, the communication must
identify the specific conduct that the employee rea­
sonably believes to be illegal, even if it is a mistaken
belief. General inquires do not constitute protected
activity. The communication only involves what is
actually communicated to the covered employer prior
to the unfavorable employment action and not what
is alleged in the complaint filed with OSHA. Welch,
supra, citing Platone v. FLYi, Inc., ARB Case No. 04154 (ARB, Sept. 29, 2006) and Fraser v. Fiduciary
Trust Co. International, 417 F. Supp. 2d 310 (S.D.N.Y.
2006)

App.43a

SUMMARY OF RELEVANT EVIDENCE
Joint Stipulations of Fact
On April 12, 2016 Respondent’s counsel filed “Joint
Stipulations of Agreed Facts” signed by counsel for
the Parties. The Parties stipulated:
1.

The Complainant began employment with
Synovus as a Senior Auditor on November
19, 2007 and became an Audit Manager in
2008.

2.

The Complainant’s last day of employment
was January 6, 2014.

July 3, 2014, Complainant
In the original complaint the Complainant states
he was employed by Respondent from November 19,
2007 through January 6, 2014. He alleges he engaged
in protected activity as an auditor during a 2008 tax
audit; a 2008 financial statement footnote review/audit;
a 2009 Melton Region lending audit; a late-2009 or
early to mid-2010 fraud risk assessment of the financial
department; a June 2011 corporate trust audit; and a
December 2013 tax audit, when he “complained to
his supervisors that they were preventing him from
thoroughly and accurately conducting audits, altering
audit work papers to lessen the severity of his audit
findings, and blocking him from reporting matters
requiring immediate attention (“MRIA”) to manage­
ment.”
The Complainant alleges that shortly after the
2009-2010 fraud assessment of the financial depart­
ment his “role in auditing finance areas was dras-

App.44a

tically reduced [and his] role in performing SOX
controls was substantially reduced to almost none.”
Excerpts from September 28, 2015, Deposition of
Complainant (Respondent AttachmentH
On September 28, 2015, the Complainant testified
that he received a Bachelor’s degree in accounting in
1993 ' and passed the Certified Public Accountant
(CPA) examination in 2005. He also received certifi­
cation in internal auditing in 2008. He is a certified
public accountant in the State of Georgia.
The Complainant testified that he was hired by
Respondent as a senior auditor and his first supervisor
was K. Greene. He agreed that he received a copy of
Respondent’s “Team Member Guide” and had ack­
nowledged he had access to the document and would
become familiar with the contents of the document.
The Complainant agreed he had access to and agreed
to become familiar with Respondent’s “Code of Busi­
ness Conduct and Ethics.” The documents involved
were annual documents from 2007 through 2013, all
prior to the Complainant’s termination of employment.
The Complainant testified that Respondent’s
internal audit group is tasked with testing and
evaluation of the Respondent’s internal controls and
4 Respondent attached to its Motion for Summary Decision
excerpts from deposition testimony of the Complainant (with
select exhibits used at deposition), excerpts from a deposition of
S.C. Weekley (with select exhibits used at deposition), declara­
tion of S.C. Weekley with exhibits incorporated therein, decla­
ration of R.J. Cello, Jr. with exhibits incorporated therein, dec­
laration of K. Greene with exhibits incorporated therein, and
excerpts from a deposition of S.M. Sawyer with one exhibit in­
corporated therein.

App.45a

processes and that he had not been an auditor or
senior auditor for a commercial bank before coming
to Respondent’s business. He testified that the internal
audits done do not create external financial reports
and that external reports involve the Finance
Department, General Counsel, and the Tax Depart­
ment. He stated Respondent has outside auditors to
perform compliance testing on Respondent. He stated
internal audit performs audits of departments that
review loans and approves loans. He reported that
the Credit Review Department reviews loan quality
and that compliance with Respondent’s loan policies
is reviewed by several departments including the
Corporate Credit Administration Department, credit
risk, lending & loan review, and loan loss review.
The Complainant testified that his supervisor K.
Green gave a negative review of his audit work in
2009 and his subsequent supervisor S. Weekley
discussed the need to put information into “Paisley”
in a timely manner. He reported he was permitted to
write the control and testing procedure for one audit,
the MSB Controls audit. He stated that “an auditor
generally sticks with testing the controls and testing
the procedures that are assigned” and he can’t change
that without direction from management. He agreed
that one of the audit requirements is the number of
hours budgeted for the audit and stated “the team
members don’t assign that; we can make recom­
mendations. We have no control over the time
budgets.” He stated repeatedly that “audit management
has the assignments and determines the audits’
schedule.”
The Complainant testified that he had conversa­
tions with supervisor S. Weekley regarding the need

App.46a

to put information into “Paisley” and to give her
accurate information on the number of hours he
needed to complete his work. He acknowledged copies
of his “Right Steps Form”5 for 2009, 2010, 2011 and
2012. He acknowledged that he submitted a two page
response to the 2010 performance review by S. Weekley
to address the negative comments entered by S.
Weekley and “explain why I didn’t agree with the
ratings that were provided.” He reported that the
2012 performance rating and comments were entered
after completion of the 2012 Financial Recording
audit; The Complainant testified that his placement
on the December 2012 “performance improvement
plan occurred seven days after I complained about
the ethical concerns regarding the 2012 Financial
Reporting audit.” He stated that the daily updates
required for several months prior to the December
2012 performance rating “were based on [S. Weekley’s]
failure to load “Paisley” so that I could load the time
in; and that was the basis of initiation of those
[daily] meetings.” The Complainant stated that his
performance ratings were higher the first year of
employment and that “after the audit director and
audit manager stated that they were uncomfortable
with me in the meeting with the chief audit executive
in 2009, the ratings changed and there was less
agreement after that point” in his own rating of per5 The “Right Steps Form” is specific to the employee and includes
individual performance and development goals for training and
proficiency, timely completion of fieldwork, leadership, and
work product quality. It contains a “performance Dimensions
Rating” section for entry of the employee’s perception on meeting
goals during the performance grading period and the supervisor’s
rating on the employee’s performance in meeting the described
goals during the performance rating period.

App.47a
formance and his supervisor’s rating of his per­
formance.
The Complainant identified deposition exhibit 16
as the December 10, 2012 PIP addressing the areas
for improvement in effective communication, timeliness
of work, and quality of work. He stated he went over
the performance improvement plan with S. Weekley.
He stated he understood that “failure to execute this
[PIP] in accordance with the deadlines established,
to follow departmental processes and procedures, or
to otherwise meet expectations outlined herein will
result in further disciplinary actions up to and
including termination of [his] employment.” He stated
that from October through December 2012, he had
regular meetings with S. Weekley “to update them
on the status of the audits” and that he “didn’t see
coaching in those meetings . . . they were status
meetings and not coaching and counseling as in the
true sense of what coaching and counseling is.” He
testified that “there was a meeting that occurred at
9:15, first in the morning, with [S. Weekley and S.
McFarland]. So we had a 9:15 meeting . .. and then
at the end of the day .. . there was an e-mail that I
would have to send to both of them to give status of
what was had been done during the day.” He stated
that during the PIP process the meetings were called
coaching and counseling.
The Complainant testified that during the second
half of 2013 he worked on three audits—the Informa­
tion Reporting audit, the Tax audit, and the follow
up to a Deposit Operations audit. He stated portions
of the Tax audit were carried over into 2014 and that
he could not remember the end date for his portions
of the work. The Tax audit involved testing a template

App.48a

the Tax Department used to estimate and record
income tax expense. He was to verify the assumptions
behind the income numbers. He reported “the testing
requirement said verify the . . . major assumptions in
the estimated tax rate template. The major and very
largest item in the estimated tax rate income template
is net interest income revenue, which is based on
loans.” He was given the same information from the
Tax Department and the Treasury Department. He
considered looking at specific loans as being included
within the scope of his work on the Tax audit. He
stated that S. Weekley did not have the Tax audit
loaded into “Paisley” until December 9, 2013 when 64
hours of the 80 hour budget had been used.
The Complainant testified that the Deposit Oper­
ations audit was an expanded audit completed in
June 2013 and that he had some follow up work on
remaining issues in the fourth quarter of 2013. His
work depended on receipt of information from others
and that he loaded updates to “Paisley” about the
work he did on the project; but could not say if all
work was completed before he went on vacation in
December 2013.
The Complainant testified that the Information
Reporting audit was also assigned to him to work but
he did not know if he had uploaded any documents to
“Paisley” on that audit before his employment
terminated in January 2014. He stated “we” discussed
the Information Reporting audit that “was scheduled
at the same time concurrently with the tax audit.”
The Complainant testified that on January 6, 2014
he was provided a copy of his “Team Member Coun­
seling Form” (CX 5; EX l) that indicated his employ­
ment was terminated. The form was delivered by S.

App.49a

Weekley and D. Adams in a meeting on January 6,
2014 “that was basically a meeting where I was
being told of a decision . . . They had made their deci­
sion.” He reported that he had earlier talked to the
HR Department about his ethical concerns about his
name being included on a 2012 audit report. He did
not talk to anyone in HR Department after the Janu­
ary 6, 2014 termination meeting. He testified that at
the January 6, 2014 termination meeting he listened
to what S. Weekley and D. Adams had to say, the
performance concerns were listed on the form he was
given. With regard to questions as to whether he
questioned the termination decision, the Complainant
stated “They made their decision and it was not open
to discussion . . . except for at the very end a comment
‘Is there anything that you want to say?’” He did not
make other comments at the January 6, 2014 termin­
ation meeting. He stated “it was a surprise to be told
that I was terminated.” He acknowledged that S.
Weekley rated his performance lower than he rated
his performance; and disputed that his performance
ratings by S. Weekley declined each year she rated the
Complainant.
The Complainant testified that “I turned in a work
paper suggesting fraud in this company ... I don’t
believe that the laws and regulations require the
word “fraud.” It had everything in there to indicate
the word fraud. It had everything in the work paper
to indicate fraud.” The information was in the ETR
work paper for the Tax audit and was provided
December 20, 2013. He testified that “The words that
were used showed intentional misrepresentation by
the company which is fraud. It said that the dis­
bursement authorization forms were used to transfer

App.50a

balances from loans essentially that were not per­
forming to new loans” so the implication is inten­
tional misrepresentation. He testified that “When I
turned that workpaper in “Paisley” on December the
20th, it was said and done in a manner to say and
suggest and imply fraud and intentional misrepre­
sentation . . . [and] it’s documented in there that
shows the misrepresentation intent on the part of
the Respondent.” He declined to say if he told S.
Weekley, Mr. Cottle, Mr. Sawyer or the general
counsel, of his belief of intentional misrepresenta­
tion/fraud in the ETR workpaper. The Complainant
testified that “The first thing I’m supposed to do is to
turn in the work to my supervisors ... which I did. The
next thing I did was come to work and got ter­
minated before I could do those—following proce­
dures. If you look at the time on the work paper, I
believe that workpaper was turned in on December
20th by 11 something at night; and the audit com­
mittee was not available I’m sure at 11:20 at night.”
He did not notify the audit committee through the
general counsel’s office and did not notify representa­
tives through the 24/7 help line about fraud reported
in the ETR workpaper. The Complainant testified
that “I was terminated before [reporting the fraud to
the supervisor, general counsel’s office, the audit com­
mittee, HR Department or help line] could have been
done while I was working.” He asserted that filing
his report in “Paisley” was a way all the necessary
people got the report of fraud.
The Complainant testified “I know that I was
terminated on [January 6, 2014]. They could have
been considering other days, but I know factually
that the final decision was made on January 6th,

App.51a

2014 ... A final decision to terminate me I believe
was done on January 6th, 2014, which is documented
by the evidence . . . [including] the team member
counseling form” that was given at the termination
meeting. He asserted that “The evidence that has
been submitted by you and me supports a January
6th 2014 [termination decision] day, at least by me.”
He noted that “there were several e-mails between
[S. Weekley] and HR that did not indicate a decision
to terminate.”
The Complainant acknowledged that creating
the audit issue and the workpaper was part of his
job; and providing the information contained in the
workpaper was part of his job. He testified that there
was a team that looked at the lending and credit
area; that federal and bank regulators examine the
Respondent’s loan process; and that KPMG audits
Respondent annually to assess the accuracy of loan
grading and financial reporting, including loans, aspect
of Respondent. He acknowledged that there are par­
ticular departments within Respondent’s organiza­
tion that review loans though he does not know what
they would specifically look at.
Team Member Counseling Form Dated January 1, 2014
(CX 5,6 Supplemental EX 1; Exhibit O to Supplemental
Response Attachment EX 2)
This exhibit indicates that that on January 6,
2014 a counseling session was held by Complainant’s
supervisor S. Weekley and HR Representative D.
Steel with the Complainant to address “Involuntary
Termination” for “Incident Type Poor Performance.”
6 Page 2 of the complete exhibit was not included in CX 5.

App.52a

The performance issues were described as—
“In December 2012, [the Complainant] was placed
on a Performance Improvement Plan (PIP) for
45 days. [The Complainant] has failed to consist­
ently sustain expectations set forth in the PIP,
since its expiration.
Over the past year, there are several issues of
key areas in which [the Complainant] has not
demonstrated the ability to sustain meeting
expectations. They are outlined below with spe­
cific examples:
Effective Communication
1.

‘Keep Manger-Audit and the person who
assigned the audit work informed of audit
process, issues encountered, etc. Communica­
tion should include sufficient drill down detail
and clarification when requested.’
[The Complainant] gives status updates and
deliverable dates for work completion, but
fails to meet these, and there is no commu­
nication initiated by him to indicate that
there have been changes. When promised
items aren’t delivered on the expected
deliverable date, the Manager-Audit is asking
about them and that is when communica­
tion takes place.
{contents of page 2 follows}
This most recently occurred in the audit of
the Tax area when he notified me on 12/12
about three items that would be delivered on
12/15, but they were actually delivered on
12/20, 12/23, and 12/27. A conversation took

App.53a

place on 12/16 to find out why they hadn’t
been delivered as promised on the 12th, and
he said that was the ‘plan’ on the 12th but
‘things change.’ I told him that without
communication from him, I had no way to
know that circumstances had changed.
We encountered similar problems with the
Wire audit where he stated that 8 workpapers were ‘in process’ and were 30-40%
complete. Upon my inspection, only 2 of these
8 work-papers had any documentation in
the attachments or the Rich Text which
contradicts the estimated completion he
provided.
These examples support that the communi­
cations provided about status are inaccurate
and therefore ineffective.
Timeliness of Work
1.

‘Spend no more hours on assignment than is
budgeted and assigned to him unless other­
wise approved in advance by the ManagerAudit or person assigned to the task being
performed.’
[The Complainant] goes well over budgeted
hours even after being told to stop working
on an audit or draw it to a close.
The Corporate Safety and Security audit was
budgeted for a total of 80 hours, yet [the
Complainant] spent 94 hours on performance
of planning procedures, forcing ManagerAudit to halt the audit before fieldwork. [The
Complainant] did not communicate problems

App.54a

with completion of planning or elevate con­
cerns about the ability to complete the audit
within budgets or scheduled time frames.
Most recently [the Complainant] has spent
120.5 hours on the Tax audit which has a
total budget of 80 hours. [The Complainant]
was asked two weeks ago to finish docu­
menting his work on it an draw it to a close.
However, [the Complainant] continued to
request additional information and spend
time on this audit.
2.

‘Submit completed work in time frames
communicated in status updates.’
See notes under ‘Effective Communication.’
These examples support that [the Complain­
ant’s] work assignments are not performed
timely.

Quality of Work
1.

‘Fully document work in Paisiey as it is per­
formed and information is gathered.’ [The
Complainant] is not consistently documenting
his work in Paisley as performed.
On [the Complainant’s] most recent assign­
ment, we had 73.5 hours on the Tax audit
9of [sic] an 80 hour budget) before the first
work-paper was submitted to Paisley for
review.
[The Complainant] indicated that he signif­
icantly modified the approach to testing for
some of the controls in Tax which consumed
a lot of time, but there was no communica-

App.55a

tion with the Manager-Audit about his plan
to do this. Without any documentation in Paisley,
the Manger-Audit could not provide effec­
tive oversight of the amount of work being
performed. (The Manager-Audit didn’t agree
that the additional testing was needed.)
{contents of page 3 follows}
In another recent assignment, [the Complain­
ant] had 100 hours spent in the Wire Opera­
tions audit before the first work-paper was
turned in. He then proceeded to turn in 8
work-papers within less than 4 hours,
indicating he had not been documenting his
work in Paisley as it was performed. Through
conversations on the Wire Audit, [the
Complainant] would state that a control
was going to “pass” (which would indicate
he had performed enough testing to draw that
conclusion) but that he was working on other
controls. [The Complainant] was reminded
that he was supposed to finish documenting
his work on each work-paper as it was
completed rather than having so many ‘in
process at one time and none of them
complete. These examples offer support that
the quality of [the Complainant’s] work is
not well documented to department stan­
dards.”
The “Action to be Taken” was indicated as “Based on
the above, Manager recommends termination of em­
ployee for failure to sustain improvement in meeting
performance standards set forth in the previous Per­
formance Improvement Plan.” The form was signed

App.56a

by Complainant’s supervisor, S.C. Weekley on January
6, 2014.
State of Georgia Separation Notice (CX 4)
On January 6, 2014, T. Wells, as Respondent’s
“HR Representative” completed a Separation Notice
that was released to the Complainant in accordance
with Georgia employment security law, OCGA § 34-8190(c). The form states the Complainant was employed
by Respondent for the period from November 19, 2007
through January 6, 2014; and that the Complainant’s
separation was “Involuntary Termination. Unsat Perf/
Violation Wrk Rules.”
Excerpts from March 6, 2016, Deposition of S.C.
Weekley (Respondent Attachment)
S. Weekley testified that she was a ManagerAudit when the Complainant worked for her and that
as a Manager-Audit she managed teams responsible
for audits. She state an audit team was composed of
a staff auditor, who was usually right out of college
or new to the audit area, a senior auditor, who
usually had a higher level of experience, and an audit
manager who usually had three to five years of audit
experience with Respondent. The audit manager
usually was responsible for overseeing specific audits
and could usually handle the more complex audits.
S. Weekley testified that that she did not complete
the 2013 Right Steps Form for the Complainant
because it would have been completed in January 2014
and the Complainant was terminated before then in
January 2014. She stated that she first placed the
Complainant on a Performance Improvement Plan
(PIP) on December 12, 2012. She was not aware of

App.57a

the Complainant being placed on a PIP earlier with
Respondent. She testified that the primary purpose
of the PIP was to “make it very clear as to what the
expectations are in performance . . . throughout their
employment. . . It’s to improve performance” and is
not used as a tool to terminate an employee. If the
employee’s performance does not improve while they
are on a PIP, there is a follow-up within the PIP for
termination. S. Weekley testified that on December
12, 2012 she and the Complainant went through the
each item of the PIP line by line for clarity. Then
weekly meetings were held for the duration of the 45day PIP period. At the end of 45 days “weekly
meetings would stop and we would resume regular
communications and activities as with other staff.
The expectations of performance outlined in the PIP
would still be in place. But as far as being on a PIP
for not being eligible for merit increases or other
considerations” that ended with the PIP. She testified
that prior to discussing the PIP with the Complainant,
she sent a copy of the draft and final PIP to S. Sawyer
as Chief Audit Executive; she copied A. Cottle as
Director of Audits on the e-mails about the PIP; and
discussed the PIP with S. McFarland as ManagerAudit who also co-managed a team of which the Com­
plainant was a member. S. Weekley testified that
“My past experience was any time performance dis­
cussions took place with [the Complainant] that had
any constructive criticism or any recommendations
to change or modify his work, it was not usually
received well.” She testified that the Complainant
stated he was surprised to see a formal PIP; “but
there were no surprises in [the PIP document as if it]
was something he had not heard before or we had
discussed before.” During the weekly meetings to

App.58a

discuss the PIP concerns, she specifically recalled the
Complainant “felt he was already doing these things
and nothing needed to change and I told him I
thought that would be an issue because there would
not have been a need for a Performance Improvement
Plan had he been doing these things.” She stated
that the PIP expired after 45 days and nothing had
to be specifically done to close the PIP. She testified
that “At the time of this PIP, we were kind of coming
down toward the end of an audit cycle where [the
Complainant’s] assignments and responsibilities would
have been lower risk areas, because of the nature of
his performance issues up to that time. More critical,
time sensitive [audit work] were not [the Complain­
ant’s] responsibilities at that time. That time of year,
my team is responsible for providing a lot of assis­
tance to our external auditors, and a lot of work
related to that [was] sensitive testing for them.” She
reported that her team audit cycle ran from March to
February and that auditor work was steady in Janu­
ary and February. S. Weekly testified that at the end
of the PIP period, “I was cautiously optimistic that
[the PIP] may have been the wake-up call needed to
improve his performance.” She testified that the PIP
was to improve performance and if an employee’s per­
formance does not improve with a PIP, she would
discuss the matter with her supervisor and the HR
Department.
S. Weekley testified that she first made the re­
commendation to terminate the Complainant’s employ­
ment in late summer 2013 to her supervisor, A. Cottle.
He directed her to contact the HR Department and
“see what we need to do.” She talked to HR repre­
sentative D. Steele, who asked for a copy of the PIP

App.59a
and time to talk to the previous HR representative,
D. Adams. S: Weekly testified that she had a “Step
Two” of the “Right Steps process” conversation with
the Complainant several weeks before approaching
D. Steele about terminating the Complainant’s employ­
ment.7 A “Step One” conversation is to establish
goals for the year. A “Step Two” conversation “is
coaching and it’s an opportunity to kind of assess
where you are in relation to goals set forth earlier in
the year” that she has with each of her team members.
The “Two Step” conversation with the Complainant
took place in September 2013 and she advised the
Complainant “it appears we are slipping back into
some of our old habits and things specifically cited in
the PIP.” She stated that at the time of the Septem­
ber conversation with the Complainant, he “had not
worked on any major audits which required an auditor
evaluation, which is an internal process we have for
audits in which you spend more than 40 hours.”
S. Weekley affirmed the information contained
in Exhibit 8 to her deposition that the decision to
terminate the Complainant was made after her Sep­
tember 19, 2013 conversation with D. Steele in which
D. Steele advised he had reviewed the provided PIP
and the courses of action would be to terminate the
Complainant or provide the Complainant with one last
counseling session that would give Synovus “addi­
tional documentation if we terminate [the Complain­
ant] and he chooses to sue us.”
7 Exhibits 7 and 8 to S. Weekly’s deposition indicates the “Step
Two” conversation with Complainant took place on September
6, 2013 and the first discussion with D. Steele took place on
September 19, 2013. It is specifically noted that the date of the
e-mail in Exhibit 8 has been deleted.

App.60a

S. Weekly testified a decision was made to termin­
ate and to put the termination date on hold until
after the Complainant gathered the low or moderate
risk audits he would work “as well as waiting until
after the holidays.” She testified that the decision to
terminate the Complainant and place the termination
date on hold until after the holidays was made “in
that September timeframe. I think in coordinating
the holiday schedules, the work load availability of
impacted parties, all were factored into that [deci­
sion].” S. Weekley testified that “I would not have
been the one making the decision [to terminate the
Complainant’s employment]. I would have had the
conversation with [A. Cottle] about that.” She testi­
fied that she had a conversation with A. Cottle that
“was basically what’s in [Exhibit 8 to her deposition],
that we appeared to be less than seven months,
seven or eight months, after coming out of specific
performance expectations outlined in the PIP, and
we were right back where we were when we put that
[PIP] in place.” She stated that she documented the
Complainant’s poor performance and could not specif­
ically recall if she recommended termination of employ­
ment to A. Cottle. She testified that the decision to
terminate the Complainant’s employment was made
before she submitted her January 2, 2014 e-mail to
A. Cottle documenting the additional performance
issues involving the Complainant’s work on the Tax
audit where the Complainant had logged 120.5 hours
as of January 2, 2013 on the audit which was origi­
nally budgeted at 40 hours and then increased to 80
hours. S. Weekley again testified that “The decision
[to terminate the Complainant] had been made. I
would not say that I had made that decision.” She tes­
tified that the decision to terminate the Complainant

App.61a

“would have come through [A. Cottle], but I don’t
recall if it was a conversation, or an e-mail, or what
the method may have been.”
S. Weekley testified that she signed the “Team
Member Counseling Form” (CX 5; Supplemental EX
5; EX 11 to S. Weekley deposition) and dated the
form January 6, 2014. She stated her belief that sev­
eral verbal counseling sessions and several written
counseling events, not on Synovus forms, had taken
place with the Complainant. She testified “Sometimes
the feedback and where we discussed those performance
issues was [done] verbally, and sometimes it was
written, and sometimes it was documented in per­
formance evaluations in the ‘Right Steps’ process. So
his counseling and feedback where his performance
was not meeting expectations was consistently done
over an extended period of time.” She stated that she
prepared the “Team Member Counsehng Form” signed
on January 6, 2014 “with feedback from primarily [A.
Cottle and D. Adams]” using “InSite” forms available
to supervisors. She reported that “no single event
triggered the PIP, nor [the Complainant’s] termination;
it was a continued pattern of poor performance....
This was not a decision taken lightly.”
S. Weekley testified that when the Complainant
was told he was being terminated on January 6, 2014,
“He really had no response. He asked for a copy of
the form, and that’s why it was in the documents
presented and copies were provided as requested.”
May 16, 2016, Second Declaration of S. Weekley
(Supplemental Response Attachment EX 2)
This exhibit reflects that, from 2004, S. Weekley
was a Manager-Audit for Synovus. She was the

App.62a

Complainant’s supervisor from early 2010 to January
6, 2014. The Complainant was in a non-managerial
position of Audit Manager during that timeframe. She
was the Complainant’s direct supervisor for adminis­
trative purposes, such as coaching, counselling and
preparing and discussing performance reviews and
for directly managing the Complainant on numerous
audits.
S. Weekley reported the Internal Audit Depart­
ment was led by S. Sawyer as Chief Audit Executive.
A. Cottle as Director-Audit and A. Perry as DirectorIT reported to S. Sawyer. S. Weekley, S. McFarland,
T. Henry and K. Greene as Managers-Audit reported
to A. Cottle.
S. Weekley reported that “InSite” is Synovus’
intranet and contains the current version of the
“Team Member Guide” which “directs employees to
report concerns about financial or auditing practices
by contacting the General Counsel’s office or the
anonymous ethics hotline ... the [Team Member] Guide
notes that members are responsible for notifying
management if they have knowledge of any error,
fraud, embezzlement, or team member misconduct.”
She reported the Complainant electronically acknow­
ledged he had access to the Synovus Code of Business
“Conduct and Ethics,” “Team Member Guide,” and
certain listed policy statements and agreed to
become familiar with those documents annually from
2007 to 2013.
S. Weekley reported that “Internal Audit’s purpose
is to test and evaluate Synovus’ internal controls and
processes to ensure that they are adequate and
functioning in a manner to manage and mitigate
risk. Internal controls are checks and balances designed

App.63a

and implemented by management to ensure that
objectives are being met in accordance with applicable
standards . . . Although some of the controls we test
relate to Synovus’ financial statements, we do not
create or review the external financial reports of
Synovus Financial Corp. Those responsibilities reside
with other departments in Synovus—financial report­
ing is managed by the Accounting/Finance Depart­
ment . . . and tax accounting is managed by the Tax
Department in conjunction with Synovus’ outside
accountants, KPMG, and tax advisors, Ernst &
Young. . . . Internal Audit performs some testing on
behalf of Accounting/Finance Management for their
use in their evaluation of SOX compliance. Internal
Audit does not perform consumer compliance or credit
administrative loan quality reviews because those
functions are handled by other departments with the
proper expertise. Consumer compliance is the res­
ponsibility of the Consumer Regulatory Compliance
Department; loan quality reviews are the responsi­
bility of Synovus Credit Review; and the Corporate
Credit Administration Department oversees other
aspects of credit administration. Because Internal
Audit is not responsible for consumer compliance,
financial reporting, tax accounting, or SOX compliance,
none of our employees’ work materially affects filings
with the Securities and Exchange Commission, filings
with tax agencies, or information provided share­
holders.
S. Weekley stated that Internal Audit performs
quarterly 9-factor risk assessments in all areas on
which the Internal Audit Department performs audits
of internal controls and processes. The 9-factor risk
assessment is used to set a 3-year schedule used to

App.64a

allocate resources and budget audit hours to each
scheduled audit. Each audit to be performed is broken
down into defined tasks; the controls and tests to be
performed are clearly identified and communicated;
the scope of the audit is also clearly identified and
communicated to each auditor for each assigned audit.
S. Weekley stated that she assigns a lead auditor
and audit team to each of her audits based on
availability and experience and that each auditor is
assigned a specific number of hours to complete their
work.
S. Weekley stated that “Paisley” is Synovus’ auto­
mated paperwork tool used to document testing
performed during an audit, risk assessments, audit
issues identified during testing, and each auditor’s
time used for working on the assigned audit. She
reported that many auditors use a company common
drive to prepare their paperwork prior to uploading
to “Paisley.” Auditors may not use removable disks,
flash drives, or any removable media to store company
data. Auditors are discouraged from using personal
directories and hard drives because of the limited
access to the company data by other team members
assigned to the particular audit. “Paisley” creates a
daily report of audit issues identified by auditors and
can be used to create reports to review the progress
of each auditor’s work in real time, identify potential
workflow issues, and to access to determine if the
audit is on schedule and in compliance with updates
being provided by auditors.
S. Weekley stated that the terms of the Complain­
ant’s December 2012 PIP were explained to the
Complainant by herself and D. Adams. She stated
“the PIP’s initial duration ran without serious incident.

App.65a

Nevertheless, the expectations set forth in the PIP—
the basic requirements of his position—remained in
place for the remainder of [the Complainant’s] employ­
ment. Although [the Complainant] demonstrated some
improvement immediately after receiving the PIP, he
failed to sustain it [and] soon lapsed into the behaviors
that had rendered his performance unsatisfactory
before the PIP.”
S. Weekley stated she consulted with D. Steele
twice in September 2013 on how to address the
Complainant’s persistent performance problems. The
two options discussed with D. Steele were to “terminate
[the Complainant] or have one more counseling session
with him.” S. Weekley recommended to A. Cottle that
the Complainant’s employment be terminated to which
he agreed. She stated “We made the decision to
terminate [the Complainant’s] employment in late
September 2013 and the only issue that remained
was when we could implement the termination in
view of the pending assignments [the Complainant]
had to complete during the critical fourth quarter
and other business decisions . . . From October to
December 2013, when [there were] no other auditors
available due to staffing assignments and a vacant
position . . . [the Complainant was] assigned to an
Information Reporting audit, a Tax audit, and issue
follow-up testing on a Deposit Operations audit” with
specified due dates before the end of 2013. She
reported the Complainant’s had two issues related to
the Deposit Operations audit that were due by October
31, 2013 and were not closed out by the Complainant
even by January 2014.
S. Weekley stated that the Complainant was
also assigned to the Tax audit which she began

App.66a

reviewing and discussing with the Complainant more
closely on and after December 12, 2013. The three
reports with December 12, 2013 scheduled completion
dates were not submitted until December 20, 2013;
December 23, 2013; and December 27, 2013. S.
Weekley discussed the report for testing the Effective
Tax Range (ETR) because “there was a detailed table
with individual loans listed and several columns of
testing that had been performed . . . [She stated she]
was not sure how [the Complainant] reached the
decision that detailed loans needed to be tested.
During this conversation [the Complainant] said that
loan interest income was a significant portion of the
company’s income, so he needed to be able to verify
the accuracy of that number before he could rely on
the income amounts used by the Tax Department
personnel for the ETR templet. . . [The Complainant]
communicated that he could not rely on the testing
performed by other auditors within the department,
even if it had been reviewed by the responsible
Manager-Audit, Audit Director, and Chief Audit
Executive.” S. Weekley reported that “As late as Jan­
uary 2, 2014, long after the audit deadlines had run
and the hours had been exhausted, [the Complainant]
had not completed the audit... it appears that [the
Complainant] used the [ETR] sample to perform
interest recalculations that were done in another
audit and he also attempted to assess whether the
loans were properly accruing interest by looking at
supporting documentation.... there was nothing about
the workpapers that made me think he had found any
issues that needed to be escalated. [The Complainant’s]
2013 Tax audit workpapers that [S. Weekley] reviewed
contained no reference or suggestion of any violation
of SOX, any Securities and Exchange Commission

App.67a

rule or regulation, or any fraud. Nor did he make
statements about shareholders, financial filings, or
tax filings.”
S. Weekley stated “Mr. Cottle and I had decided
in September 2013 that we would terminate [the
Complainant] before he even began the 2013 Tax
audit. The decision was based on [the Complainant’s]
persistent refusal and failure over the course of his
employment to address his significant performance
deficiencies despite exhaustive coaching, counseling,
performance reviews and a PIP. . . . [The Complain­
ant’s] termination would have taken place in early
fourth quarter, but it was delayed because of the
demand of our work, my own scheduling needs, and
the occurrence of the holidays... . and we did not want
to terminate [the Complainant] during the hohdays.
. .. [The Complainant’s] termination was due entirely
to his persistent poor performance and failure to
improve despite years of consistent coaching on the
same issues. It was entirely unrelated to any
observations he made in his 2013 Tax audit workpapers.”
S. Weekley stated that “during his employment
[the Complainant] never raised any concerns to me
that Synovus’ conduct was in violation of SOX or
Dodd-Frank, in violation of a rule or regulation of the
Securities and Exchange Commission, or that there
was fraud that would negatively affect shareholders
. . . If he had made such statement or suggestion to
me, I would have escalated the issue to Mr. Cottle for
further investigation and guidance.”

App.68a

Exhibit M to the May 16, 2016, Second Declaration of S.
Weekley (Supplemental Response Attachment EX 2)
Exhibit M is page 6 of 7 titled “Workpaper—
Control Test” related to the ETR uploaded to “Paisley”
by the Complainant the end of December 2013. This
exhibit includes the report—
To address risks regarding income projections,
detailed testing was performed for the Projected
2013 Income Before Tax line on the ETR, which is
the largest item on the ETR. Interest income projections
provided in quarterly tax books are at a high level
and fail to be adequately verified by tax department
management and forwarded to external auditors who
also appear to get the same high level summary
numbers which are not readily verifiable in and of
themselves.
“Since part of the credit crisis problem from
the past several years was related to the
loss of unpaid loan assets and associated
interest revenue, paid loan reports were
examined initially to see if loans on the paid
report were actually paid. Net interest is
derived from loans. After reviewing paid
loan reports at a high level, most of the
loans on the paid loan report were loans
that had not actually been paid off but that
were renewed. While this is not an issue
itself, it was noticed that loans were not
only renewed, but in many cases there were
multiple renewals of loans that had gone
past their maturity dates, paid off in the
system, renewed or extended with the same
or lower interest rates, new maturity date,
and the maturity balance from the past due

App.69a

maturity note transferred to new notes
using Disbursement Authorization forms to
transfer the balance(s) of loan notes onto
new loan notes; without an actual loan
payoff effectively keeping loans past their
maturity dates accruing interest when the
loan possibly should not be accruing interest
and reflected in net interest income or
estimated and booked income tax expense.
Fifteen loans were judgmentally selected
and tested to see if the interest income
contribution from a small select sample of
loans represented interest that appears as if it
should be accruing interest included in net
interest revenue and reflected in tax expense
estimates. Thirteen of 15 loans selected
were noted as having potential issues that
were prevalent. . . that could or should
prevent the loan/notes from accruing interest
including. ...”
Exhibit N to the May 16, 2016, Second Declaration of
S. Weekley (Supplemental Response Attachment EX 2)
In this exhibit S. Weekley reports to A. Cottle on
January 2, 2014, that
“It’s now 1/2/2014 and [the Complainant is]
continuing to request information from man­
agement and document workpapers. The
[Tax] audit was almost out of budgeted time
before the first workpaper was documented
and submitted for review.
[The Complainant] told me he couldn’t rely on
the work of others (e.g. loan interest recal-

App.70a

culation) when he didn’t even need to be
going to that level of detail in this audit; he
significantly expanded scope for testing for
some tests without consulting me. He chose
to perform interest recalculations which are
performed in another audit (claimed he
didn’t know there was an audit on this, but
he didn’t ask; it’s covered by our team and
he did some of the PP work for that audit in
2012); he also selected a sample of loans
and looked at supporting documentation for
them. He claimed the extra work was to get
comfortable with the income associated to
loans since it was a significant portion of
the amount used in calculating the tax
expense of the company. ...”
Excerpts from March 8, 2016 Deposition of S.M.
Sawyer (Respondent Attachment)
S. Sawyer testified that he has been the Chief
Audit Executive with Respondent for about 13 years
and was in that position when the Complainant’s
employment was terminated. He reported he was
aware of the Performance Improvement Plan (PIP)
that the Complainant had been put on as well as the
“talent management process” that led to the
Complainant’s termination of employment. He stated
that the “talent management process” was a process
“where we were identifying within the risk group of
the . . . company, top performers and low performers.
And with top performers we were identifying what
additional development activities needed to take place;
with low performers, what action plans needed to
take place. When [the Complainant] was identified
as a low performer, given the past history we had,

App.71a

having been on a [PIP], and being unable or unwilbng
to meet the objectives of that plan, our conclusion
was the termination was the next process and not
another PIP.
S. Sawyer testified that high performers were
identified for additional training, developmental train­
ing and leadership training. Low performers were
identified to determine what would be the next
step—PIP or terminate. He testified that in his group
two individuals were identified as low performers, the
Complainant who was terminated and T. Henry who
was demoted from Manager-Audit to Audit-Manager
in December 2013. He reported that employees were
fired in other groups as a result of the “talent manage­
ment process.”
S. Sawyer identified Exhibit 1 to his deposition
as “a summary from HR of the discussion that took
place at the talent management meeting on November
19th” 2013, in which he participated. He testified
that the Complainant was identified as being in the
bottom 10% of his pay grade range.
October 31, 2014, Declaration of K. Greene (Respond­
ent Attachment)
This exhibit reflects that K. Greene has worked
in the Respondent’s Internal Audit Department for 20
years, has held the management position of ManagerAudit since 2005, and made the decision to hire the
Complainant as a Senior Auditor November 19, 2007.
For the period from 2007 to the first quarter of 2010
he was the Complainant’s direct supervisor, oversaw
the Complainant’s work, conducted the Complain­
ant’s performance reviews, and informally counselled
the Complainant on an ongoing basis as issues arose.

App.72a

K. Greene reported that when the Complainant
worked for him, the “team focused on audits that
evaluated lending, credit cards, electronic payments,
liquidity, funds management, financial reporting,
treasury management functions, Synovus Securities
(broker-dealer), and Synovus Trust.” The Complainant
was assigned to work on financial reporting and
treasury audits because he was a certified public
accountant (CPA). He reported that audit workpapers
go through a two stage review and may also be further
reviewed by the Chief Audit Executive, S. Sawyer. As
Manager-Audit, he provided first level review of the
Complainant’s workpapers and the Director-Audit,
A. Cottle, provided second level review. The financial
audits conducted by K. Greene’s team” tested controls
over the reporting process to ensure proper functioning
of Synovus’ processes for gathering, reviewing, and
reporting results of financial operations to those indi­
viduals who had an interest in the information
(shareholders, regulators, and the general public).”
Determining if Generally Accepted Accounting Prin­
ciples (GAAP) were followed was beyond the scope of
the audit. Outside auditor KPMG determines if GAAP
was followed in Synovus’ financial documents and
tax related assertions.
K. Greene reported he recognized performance
deficiencies in the Complainant the first jrear of
employment, including audit work consistently behind
schedule throughout the year. The Complainant was
reclassified to the non-management position as AuditManager during a 2008 reorganization. K. Greene
continued to coach the Complainant “about his job
requirements and opportunities for improvement both
orally and in writing . . . [the Complainant’s] work

App.73a
needed to be reworked before it could be used, among
other issues.” K. Greene reported the Complainant
consistently missed deadlines, was regularly unable
or unwilling to state when workpapers and testing
would be completed, gave misleading status updates,
regularly exceed the hours budgeted for his audit
assignments, consistently failed to stay within his
budgeted hours or to request authority for and justify
additional hours, was unable or unwilling to provide
explanations for hour overages, failed to draft clear
and concise workpapers, created problems with team
members if assigned to a team audit, often horded
information and kept it from his team members, and
engaged in disruptive behavior when assigned to a
team audit so that some peers requested not to work
with him again.
K. Greene reported that all auditors are required
to timely document their work in “Paisley” which is
Synovus’ automated workpaper tool. He noted that
auditors commonly complete their work using Microsoft
Word or Excel and save their files to a common drive
accessible to everyone in the Internal Audit Department
so that the work can be reviewed promptly and in an
on-going basis as an audit progresses. He stated he
regularly reminded and counselled the Complainant
about requirements and procedures but the Complain­
ant “persistently refused to upload his work to ‘Paisley’
or save it to the common drive. Instead, he used
portable flash drives to save his work, a serious viola­
tion of the Company’s Information Security Policy.” K.
Greene reported that “Throughout the time I super­
vised [the Complainant] he sometimes showed sporadic
improvement in his performance after counseling;
however, he never sustained any such improvement.

App.74a

His patterns of inadequate and unsatisfactory per­
formance continued.”
K. Greene reported that during a 2008 Tax audit
the Complainant “asserted that Synovus should have
been using a different methodology to calculate income
taxes and that management had not met its estimated
obligations under the annualization method.” K. Green
disagreed with the Complainant’s opinion and took
the matter to M. Robinson as Director of Tax. He
stated M. Robinson gave the Complainant the oppor­
tunity to explain his position and determined that
Synovus was required to use the methodology then
employed and was not allowed to use the method
identified by the Complainant. KPMG and Ernst &
Young also reviewed the methodology used and found
it correct and consistent with tax elections made. A.
Cottle and S. Sawyer also reviewed the Complainant’s
report and concurred with the methodology used and
approved by KPMG and Ernst & Young.
K. Greene reported that the Complainant did
not raise any issues with the 2009 Financial Statement
Footnote audit he was assigned to review. During the
2009 Melton Region Lending audit K. Green reported
that “it became clear to me that [the Complainant]
did not understand the use of interest reserves for
loan customers, an accepted practice in the industry.
I explained to [the Complainant] what interest reserves
were and how they worked. I gave him documentation
to educate him. Despite my guidance, however, [the
Complainant] refused to change his incorrect position
about the loans at issue ... The final audit workpapers
were reviewed in accordance with the established
review process of Internal Audit and the DirectorAudit agreed with my assessment of the control. By

App.75a

2010, I felt [the Complainant’s] work product was
unreliable and did not match his purported level of
training or his position’s responsibilities at Synovus.”
The Complainant was moved to S. Weekley’s team in
early 2010 during restructuring.
K. Greene reported “During [the Complainant’s]
employment, including the time I supervised him
directly, [the Complainant] never raised any concerns
to me that Synovus’ conduct was in violation of SOX,
in violation of a rule or regulation of the Securities
and Exchange Commission, or that there was fraud
that would negatively affect shareholders. If he had,
I would have immediately informed Mr. Sawyer and
Mr. Cottle. His move to Ms. Weekley’s team thus had
nothing to do with any concerns that he raised
during the time he worked under my supervision.”
K. Green reported that he reviewed the December
2012 PIP that S. Weekley issued to the Complainant
“to ensure it fairly reflected [the Complainant’s] per­
formance and performance improvement needs I had
observed. Ms. Weekley’s assessment was consistent
with the experiences that I had when I supervised
[the Complainant] and I concurred with her plan to
try to improve his performance.”
K. Green reported he reviewed the Complainant’s
“claim about purported improper conduct that he
discovered during the 2013 Tax audit, and I also
analyzed the documentation upon which [the Com­
plainant] said he relied to make his conclusions.
First, I saw that the work he performed on loans
during the Tax audit had no correlation to the control
test he was asked to perform. For instance, he made
assessments about the grading of loan that he selected
rather than testing specific controls, an improper

App.76a

process. Second, in approximately two (2) hours, I
was able to determine that the relevant information
proved that there was no fraudulent manipulation of
the loans to overstate income. In each of the cases
that [the Complainant] cited as issues, he alleged
that the customers had not made interest payments
on the loans and that the loans were renewed to
prevent them from going past due. He was wrong. In
each of the cases, the customer paid the total amount
of interest due on the loan from their own funds prior
to the loan being renewed. All of the documentation
and resources I reviewed to determine that Synovus’
loans were lawful were available to [the Complainant],
but [the Complainant] either ignored them or did not
understand them. For whatever reason, he reached
the wrong conclusion.”
October 31, 2014, Declaration of R.J. Cellino, Jr.
(Respondent Attachment)
This exhibit reflects that R. Cellino has worked
for Respondent in the Corporate Credit Administration
Department since 2002 and as Senior Manager of
Corporate Credit Administration since 2011. He also
serves on the Special Assets Loan Committee which
reviews and approves problem loans throughout
Synovus, and is the company’s primary contact with
regulatory agencies and the outside auditor KPMG.
R. Cellino reported that after the Complainant
filed his SOX complaint, “I reviewed and analyzed a
spreadsheet taken from the workpapers associated with
the 2013 Tax audit that [the Complainant] conducted
and a workpaper that I am told [the Complainant]
attached to his demand letter dated August 19, 2014
[attached to the Declaration as Exhibit A]. It is my

App.77a

understanding that [the Complainant] is claiming
now that his assessment was that Synovus attempted
to inflate its profitability by fraudulently manipulating
loans to avoid recognition of higher risk loans. My
analysis of his spreadsheet and workpaper showed
no evidence of any such conduct. In his workpaper
[the Complainant] asserted that 13 of the 15 loans he
selected and tested had ‘potential issues that were
prevalent.’ He indicated that these issues ‘could or
should prevent the loan/notes from accruing interest.’
Contrary to [the Complainant’s] assessments, none
of the 15 loans he listed should have been placed on
non-accrual status (meaning they no longer accrue
interest). In fact, the available documentation sup­
ports the opposite conclusion, that Synovus was
warranted in continuing to accrue interest on those
loans. Synovus did not overstate the interest income,
nor did it understate the allowance for loan and lease
losses associated with the reviewed credits.”
R. Cello reported that during “the period covered
by [the Complainant’s] spreadsheet and workpaper,
seven (7) interagency examinations were conducted
... the results of those examinations affirmed our
grading and were very positive. In the fourth quarter
of 2013, KPMG conducted its annual review to assess
the accuracy of our loan grading. Their thorough review
considered loan upgrades, loan downgrades, and Top
Borrowers within the organization, among others,
and it resulted in only minor changes . . . KPMG
affirmed Synovus’ internal controls. . . as of December
31, 2013.”

App.78a

DISCUSSION
Respondents have requested the case be dismissed
through summary decision.
Summary decision is appropriate in a proceeding
before an Administrative Law Judge “if the pleadings,
affidavits, material obtained by discovery or otherwise,
or matters officially noticed show that there is no
genuine issue as to any material fact and that a
party is entitled to summary decision.” 29 C.F.R.
§ 18.40(d); see also Williams, supra. All material con­
tained in the administrative file are considered. The
moving party bears the burden of establishing that
there is no genuine issue of material fact when the
material submitted for consideration is viewed in a
light most favorable to the non-moving party.
Celotex Corp. v. Catrett, All US 317, 106 S. Ct. 2548
(1986); Matsushita Elec. Indus. Co. v. Zenith Radio
Corp., 475 US 574, 106 S. Ct. 1348 (1986); Anderson
v. Liberty Lobby, Inc., All US 242 (1986).
The first step of the analysis is to determine
whether there is any genuine issue of a material fact.
If the pleadings and documents that the parties sub­
mitted demonstrate the existence of a genuinely
disputed material fact, then summary decision cannot
be granted. Denying summary decision because there
is a genuine issue of material fact simply indicates
that an evidentiary hearing is required to resolve
some factual questions and is not an assessment on
the merits of any particular claim or defense.” Johnson,
supra, slip op. at 7.
As the ARB has earlier explained,
Determining whether there is an issue of
material fact requires several steps. First,

App.79a
the ALJ must examine the elements of the
complainant’s claims to sift the material
facts from the immaterial. Once materiality
is determined, the ALJ next must examine
the arguments and evidence the parties
submitted to determine if there is a genuine
dispute as to the material facts. The party
moving for summary decision bears the
burden of showing that there is no genuine
issue of material fact. When reviewing the
evidence the parties submitted, the ALJ
must view it in the light most favorable to
the nonmoving party, the complainant in
this case. The moving party must come
forward with an initial showing that it is
entitled to summary decision. The moving
party may prevail on its motion for summary
decision by pointing to the absence of evi­
dence for an essential element of the com­
plainant’s claim.
In responding to a motion for summary
decision, the nonmoving party may not rest
solely upon his allegations, speculation or
denials, but must set forth specific facts
that could support a finding in his favor.
See 29 C.F.R. § 18.40(c)8. If the moving party
presented admissible evidence in support of
the motion for summary decision, the non­
moving party must also provide admissible
evidence to raise a genuine issue of fact.
8 29 CFR § 18.40 was restated in the revised Rules of Practice
and Procedure for Hearings Before the Office of Administrative
Law Judges at 29 CFR § 18.72, effective June 18, 2015.

App.80a

Williams, supra, slip op. at 6, quoting Hasan
v. Enercon Servs., Inc., ARB No. 10-0061,
ALJ Nos. 2004-ERA-00022 &-00027, slip op.
at 4-5 (ARB July 28, 2011) (citations
omitted).
I.

Adverse employment actions that occurred before
January 1, 2014 may not be redressed under SOX.

In his complaint, the Complainant alleged, as
adverse employment actions, “unwarranted perform­
ance-based criticism, placed on unjustified Performance
Improvement Plan (PIP) and ultimately terminated,
in retaliation for his complaints,” as well as being
reassigned from supervisor K. Greene’s team to supe­
rvisor S. Weekley’s team, “a less desirable assignment”
in 2010.
SOX requires that complaint of adverse employ­
ment.actions in retaliation for engaging in protected
activity must be filed within 180 days of the adverse
employment action, 18 U.S.C. § 1514A(b)(2)(D). Here,
the complaint filed by Complainant’s counsel was
undated and has no indication of whether it was filed
by mail or facsimile transmission or delivered by
hand or courier; though OSHA indicates the com­
plaint was filed on Thursday, July 3, 2014. Thus the
SOX 180-day statute of limitations period would
span the period no earlier than January 1, 2014. 29
CFR § 18.32(a).
The only adverse employment action alleged to
have occurred on or after January 1, 2014 is the
termination of the Complainant’s employment on
January 6, 2014. The Complainant’s alleged adverse
change in employment duties in 2009-2010, stated as
his “role in auditing finance areas was drastically

App.81a

reduced [and his] role in performing SOX controls
was substantially reduced to almost none,” is an
allegation statutorily barred from consideration as
an adverse employment action in this current SOX
complaint. Likewise the Complainant’s 45-day Decem­
ber 2012 Performance Improvement Plan is statutorily
barred from consideration as an adverse employment
action in this current SOX complaint.
II.

The termination of the Claimant’s employment
on January 6, 2014 was an adverse employment
action within the meaning of SOX

The Respondent submits that the decision to
terminate the Complainant’s employment was made
before the Complainant was assigned three audits to
perform in December 2013.
The Complainant’s deposition testimony, S. Weekley’s
deposition testimony, and the “Team Member Counsel­
ing Form” dated January 1, 2004 (CX 5, Supplemental
EX 1; Exhibit O to Supplemental Response Attachment
EX 2) all indicate that the Complainant participated
in a meeting with his immediate supervisor on Janu­
ary 6, 2014 during which he was informed that his
employment was terminated effective January 6,
2014.
While the decision to terminate that Complainant’s
employment may have been made prior to January
2014, there is no evidence that the decision to terminate
his employment was communicated to the Complainant
before January 6, 2014. Upon completion of the meeting
with S. Weekley, on January 6, 2014, the Complainant
was escorted from Respondent’s property.

App.82a

After deliberation on the entire administrative file
in a light most favorable to the Complainant, the evi­
dence establishes that the Complainant suffered and
adverse employment action within the meaning of
SOX on January 6, 2014, when his employment was
terminated by Respondent.
III. When Viewed in the Best Light for the Com­
plainant, Whether the Respondent Made the
Decision to Terminate the Complainant’s
Employment Was Made Before the Complainant
Uploaded His ETR Workpaper on December 20,
2013, Remains a Genuine Issue of a Material
Fact
While the Complainant was notified that his
employment was terminated upon his return to work
January 6, 2014, when the decision was made by
Respondent to terminate the Complainant is important
because the Complainant alleges he engaged in pro­
tected activity on December 20, 2013. The Respondent
argues the Complainant’s December 20, 2013 activity
was after the date the decision to terminate the
Complainant was made. If true, no protected activity
occurring after the decision to terminated employment
was made can be considered as a factor contributing
to the termination decision.
The Respondent submits that the decision to
terminate the Complainant’s employment was made
before the Complainant was assigned three audits to
perform in December 2013. The Complainant’s
Supervisor S. Weekley states she began the termination
process with conversations her supervisor A. Cottle
and HR representative D. Steele in mid-September
and that by the end of September the decision had

App.83a

been made to terminate the Complainant after the
Complainant completed assigned work due before he
departed on vacation at the end of December 2013. S.
Sawyer stated that he was aware of the Complainant’s
PIP and that a “talent management process” was
done in November 2013; that at a November 19, 2013
meeting with HR representatives, the Complainant
was identified as a low performer in the lower 10% of
the Audit Department; and that the “talent manage­
ment process” led to the decision to terminate the
Complainant’s employment. The “Team Member
Counseling Form” which was used to notify the
Complainant that his employment was being termin­
ated was prepared on January 1, 2014.
When the documents submitted for consideration
are viewed in the best light for the Complainant, the
Respondent has failed to establish that the decision
to terminate was made before the Complainant
uploaded his workpapers to “Paisley” prior to departing
on vacation at the end of December 2013.
IV. When Viewed in the Light Most Favorable to the
Complainant, the Complainant Has Established
His Subjective Belief That the Respondent’s
Alleged Conduct Constitutes a Violation of 18
U.S.C. 1341; or a Rule or Regulation of the
Securities and Exchange Commission; or a
Provision of Federal Law Relating to Fraud
Against Shareholders
As noted above, SOX “requires an employee
demonstrate both a subjective [good faith] belief and
an objectively reasonable belief that the company’s
conduct violated a law listed in [§ 1514A(a)(l)]. A
subjective belief means that the employee ‘actually

App.84a

believed the conduct complained of constituted a vio­
lation of pertinent law’” Gale v. U.S. Dept of Labor,
384 Fed. Appx. 926, 930 (llth Cir. 2010) unpub, citing
Welch v. Chao, 536 F.3d 269 at 277 n. 4 (4th Cir.
2008); 80 Fed. Reg. 11867-11868 (Mar. 5, 2015)
The Complainant alleges that the ETR workpaper
he uploaded to “Paisley” on December 20, 2013,
demonstrates that Respondent was engaged in fraud
and misconduct in handling 13 of the 15 loans he
reviewed as part of his Tax audit assignment.
Deposition testimony and copies of the December
20, 2013 ETR workpaper, when viewed in a light
most favorable to the Complainant demonstrates his
subjective belief that the Respondent’s alleged conduct
involving the referenced loans constituted a violation
of 18 U.S.C. 1344, which refers to bank fraud; a rule
or regulation of the Securities and Exchange Com­
mission; or a provision of Federal law relating to
fraud against shareholders. The Complainant has
not contradicted his subjective belief on these potential
violations.
There is no submitted documentation or deposition
testimony that infers a subjective belief that the Res­
pondent’s alleged fraud and misconduct constitutes a
violation of 18 U.S.C. 1341, 1343 or 1348, which refer
to mail fraud; fraud by wire, radio or television; and
securities and commodities fraud, respectively.

App.85a
V.

When Viewed in the Light Most Favorable to the
Complainant, the Complainant Has Failed to
Demonstrate That a Reasonable Person Would
Believe That the Respondent’s Alleged Conduct
Constitutes a Violation of 18 U.S.C. 1341, 1343,
1344, or 1348; Any Rule or Regulation of the
Securities and Exchange Commission; or Any
Provision of Federal Law Relating to Fraud
Against Shareholders.

In order to ultimately prevail in a SOX complaint,
the Complainant must also establish that a reasonable
person would beheve the Respondent’s aheged conduct
constitutes a violation of 18 U.S.C. 1344; any rule or
regulation of the Securities and Exchange Commission;
or any provision of Federal law relating to fraud
against shareholders when the same information
known to the Complainant is also known to the rea­
sonable person of similar training, skills and ability.
Here, the Complainant testified in deposition that
he turned in an ETR workpaper on December 20,
2013 involving the assigned Tax audit work. He tes­
tified in deposition that “the words that were used
showed intentional misrepresentation by the com­
pany which is fraud. It said that the disbursement
authorization forms used to transfer balances from
loans essentially that were not performing to new
loans . . . when I turned that paper into ‘Paisley’ on
December the 20th, it was said and done in a manner
to say and suggest and imply fraud and intentional
misrepresentation . . . [and] it’s documented in there
that shows the misrepresentation intent on the part
of the Respondent.” The Complainant testified he
was terminated before he could report the fraud to

App.86a

the supervisor, General Counsel’s office, the audit
committee, HR Department or the Help line.
The Complainant did not submit evidence for
consideration that related to the requirement that a
reasonable employee with similar knowledge, training,
ability and skills also believe the alleged actions set
forth in the December 20, 2013 ETR workpaper
constituted a violation of 18 U.S.C. 1344; any rule or
regulation of the Securities and Exchange Commission;
or any provision of Federal law relating to fraud
against shareholders.
The Respondent did however submit evidence for
consideration on the requirement that the alleged
violation(s) be objectively reasonable.
K. Greene was the Complainant’s first direct
supervisor. He testified by declaration that he analyzed
the ETR, 2013 Tax audit documentation that the
Complainant said demonstrated fraud and misrepre­
sentation by Respondent and that within two hours
“I was able to determine that the relevant information
proved that there was no fraudulent manipulation of
the loans to overstate income. In each of the cases
that [the Complainant] cited as issues, he alleged
that the customers had not made interest payments
on the loans and that the loans were renewed to
prevent them from going past due. He was wrong. ...
For whatever reason, he reached the wrong conclu­
sion.”
R. Cellino as Senior Manager of Corporate
Credit Administration reviewed the spreadsheet sub­
mitted by the Complainant in the ETR workpapers for
the 2013 Tax audit. He testified by declaration that
“my analysis of [the Complainant’s] spreadsheet and

App.87a

workpaper showed no evidence of any [fraudulent
manipulation of loans] conduct. In his workpaper
[the Complainant] asserted that 13 of the 15 loans he
selected had potential issues that were prevalent.
[The Complainant] indicated that these issues could
or should prevent the loan/notes from accruing interest.
Contrary to [the Complainant’s] assessments, none
of the 15 loans he listed should have been placed in
non-accrual status ... In fact, the available docu­
mentation supports the opposite conclusion, that
Synovus was warranted in continuing to accrue interest
on those loans. Synovus did not overstate the interest
income, nor did it understate the allowance for loan
and lease losses associated with the reviewed credits.”
While the Complainant has asserted his subjective
belief of fraud and misrepresentation associated with
the ETR workpaper and 2013 Tax audit, the unrebutted
documentation submitted by Respondent is that a
reasonably prudent person would not believe that
Synovus engaged in fraud and intentional misrepre­
sentations based on the 2013 Tax audit as alleged.
Accordingly, when the evidence is considered in a light
most favorable to the Complainant, the Complainant
has failed to establish that this alleged activity was
such that a reasonable person would believe that it
constitutes a violation of 18 U.S.C. 1341, 1343, 1344
or 1348; any rule or regulation of the Securities and
Exchange Commission; or any provision of Federal
law relating to fraud against shareholders.
The Complainant also alleges that his supervisors
“were preventing him from thoroughly and accurately
conducting audits, altering work papers to lessen the
severity of his audit findings and blocking him from
reporting matters requiring immediate attention to

App.88a

management.” The Complainant testified in deposition
that he did not contact the General Counsel’s office
or use the Help line to report any concerns. His
immediate supervisors, K. Greene and S. Weekley
testified that the Complainant never brought any
allegations of SOX violations to their attention.
The Complainant’s performance evaluations sub­
mitted for consideration provide information on these
allegations. The annual evaluations show a pattern
of assigned work being submitted late, work being
performed exceeding allotted hours for completion,
repetitive requests for information and updates being
ignored, insufficient documentation for his conclu­
sions, and discussions with his supervisor about
budgeted hours and performance issues. None of the
performance evaluations support the allegation the
superiors were preventing him from doing his assigned
work, altering his workpapers, or blocking him from
reporting concerns to management. Accordingly, when
the evidence is considered in a light most favorable
to the Complainant, the Complainant has failed to
establish that this alleged activity was such that a
reasonable person would believe that it constitutes a
violation of 18 U.S.C. 1341, 1343, 1344, or 1348; any
rule or regulation of the Securities and Exchange
Commission; or any provision of Federal law relating
to fraud against shareholders.
VI. Respondent Is Entitled to Summary Decision
and Dismissal of the Complainant
As noted above, if the Complainant does not prove
any one of the required elements, the entire complaint
fails and the complainant warrants dismissal. See;
Coryell, supra.; Sylvester v. Parexel International LLC.

App.89a

ARB No. 07-123, ALJ Case No. 2007-SOX-00039 &
00040 (ARB May 25, 2011)
After review of the administrative file, the
position of the Parties, and evidence submitted by
the Parties on the Motion for Summary Decision,
when the evidence is view in the best light for the
Complainant, it is established that—
1.

The Complainant suffered an adverse employ­
ment action on January 6, 2014 when his
employment was terminated by Respondent.

2.

The Complainant had a subjective belief [good
faith belief] that the Respondent’s alleged
conduct constitutes a violation of 18 U.S.C.
1344 or any rule or regulation of the
Securities and Exchange Commission, or
any provision of Federal law relating to
fraud against shareholders.

3.

A reasonable person with similar knowledge,
training, abilities, and skills of the Complain­
ant would not believe that the Respondent’s
alleged conduct constitutes a violation of 18
U.S.C. 1341, 1343, 1344 or 1348; any rule or
regulation of the Securities and Exchange
Commission; or any provision of Federal law
relating to fraud against shareholders.

In that the evidence when viewed in the best
light for the Complainant failed to establish a genuine
issue of a material fact involving the required objective
belief that a reasonable person with similar knowledge,
training, abilities, and skills of the Complainant would
believe that the Respondent’s alleged conduct consti­
tutes a violation of 18 U.S.C. 1341, 1343, 1344 or 1348;
any rule or regulation of the Securities and Exchange

App.90a

Commission; or any provision of Federal law relating
to fraud against shareholders, the complaint warrants
dismissal. Accordingly, the additional issues of (l)
whether alleged protected activity was a contributing
factor to the decision to terminate the Complainant’s
employment; and, (2) whether the Respondent would
take the same action of terminating Complainant’s
employment without protected activity having
occurred, need not be addressed.
ORDER
It is hereby Ordered that Respondent’s Motion
for Summary Decision is GRANTED and the Complaint
filed July 3, 2014 is DISMISSED.

/s/ Alan L. Bergstrom_____
Administrative Law Judge

ALB/jcb
Newport News, Virginia

App.91a
PER CURIAM ORDER OF THE UNITED STATES
COURT OF APPEALS FOR THE ELEVENTH
CIRCUIT DENYING PETITION FOR REHEARING
(JULY, 30 2020)
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
MICHAEL B. BROWN,
Petitioner,
v.
U.S. DEPARTMENT OF LABOR,
Respondent.
No. 19-13120
Petition for Review of a
Decision of the Department of Labor
Before: WILSON, GRANT, and LUCK, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED,
no judge in regular active service on the Court
having requested that the Court be polled on
rehearing en banc. (FRAP 35) The Petition for Panel
Rehearing is also denied. (FRAP 40)

App.92a

CONSTITUTIONAL, STATUTORY,
AND JUDICIAL PROVISIONS INVOLVED
U.S. Const, amend. XTV, § 1.
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and the State
wherein they reside. No State shall make or
enforce any law which shall abridge the privileges
or immunities of citizens of the United States;
nor shall any State deprive any person of life,
liberty, or propertj7, without due process of law;
nor deny to any person within its jurisdiction the
equal protection of the laws.
5 U.S.C. § 706—Scope of review
To the extent necessary to decision and when
presented, the reviewing court shall decide all
relevant questions of law, interpret constitutional
and statutory provisions, and determine the
meaning or applicability of the terms of an agency
action. The reviewing court shall—
(1) compel agency action unlawfully withheld
or unreasonably delayed; and
(2) hold unlawful and set aside agency action,
findings, and conclusions found to be—
(A) arbitrary, capricious, an abuse of discre­
tion, or otherwise not in accordance with
law;
(B) contrary to constitutional right, power,
privilege, or immunity;

App.93a

(C) in excess of statutory jurisdiction, autho­
rity, or limitations, or short of statutory
right;
(D) without observance of procedure required
by law;
(E) unsupported by substantial evidence in
a case subject to sections 556 and 557
of this title or otherwise reviewed on
the record of an agency hearing provided
by statute; or
(F) unwarranted by the facts to the extent
that the facts are subject to trial de
novo by the reviewing court.
In making the foregoing determinations, the court
shall review the whole record or those parts of it
cited by a party, and due account shall be taken
of the rule of prejudicial error.
18 U.S.C. § 1514A—Civil Action to Protect Against
Retaliation in Fraud Cases
(a) Whistleblower Protection for Employees of
Publicly Traded Companies.—
No company with a class of securities registered
under section 12 of the Securities Exchange Act
of 1934 (15 U.S.C. 781), or that is required to file
reports under section 15(d) of the Securities
Exchange Act of 1934 (15 U.S.C. 78o(d)) including
any subsidiary or affiliate whose financial infor­
mation is included in the consolidated financial
statements of such company, or nationally recog­
nized statistical rating organization (as defined
in section 3(a) of the Securities Exchange Act of

App.94a

1934 (15 U.S.C. 78c), 1 or any officer, employee,
contractor, subcontractor, or agent of such com­
pany or nationally recognized statistical rating
organization, may discharge, demote, suspend,
threaten, harass, or in any other manner discrim­
inate against an employee in the terms and
conditions of employment because of any lawful
act done by the employee—
(1) to provide information, cause information to
be provided, or otherwise assist in an inves­
tigation regarding any conduct which the
employee reasonably believes constitutes a
violation of section 1341, 1343, 1344, or 1348,
any rule or regulation of the Securities and
Exchange Commission, or any provision of
Federal law relating to fraud against share­
holders, when the information or assistance
is provided to or the investigation is con­
ducted by—
(A) a Federal regulatory or law enforcement
agency;
(B) any Member of Congress or any com­
mittee of Congress; or
(C) a person with supervisory authority over
the employee (or such other person work­
ing for the employer who has the author­
ity to investigate, discover, or terminate
misconduct); or
(2) to file, cause to be filed, testify, participate
in, or otherwise assist in a proceeding filed
1 So in original. Another closing parenthesis probably should
precede the comma.

App.95a

or about to be filed (with any knowledge of
the employer) relating to an alleged violation
of section 1341, 1343, 1344, or 1348, any rule
or regulation of the Securities and Exchange
Commission, or any provision of Federal law
relating to fraud against shareholders.
(b) Enforcement Action.—
(l) In GENERAL.—A person who alleges discharge
or other discrimination by any person in violation
of subsection (a) may seek relief under subsection
(c), by—
(A) filing a complaint with the Secretary of Labor;
or
(B) if the Secretary has not issued a final decision
within 180 days of the filing of the complaint
and there is no showing that such delay is due
to the bad faith of the claimant, bringing an
action at law or equity for de novo review in
the appropriate district court of the United
States, which shall have jurisdiction over such
an action without regard to the amount in
controversy.
(2) Procedure —
(A) In GENERAL.—An action under paragraph
(l)(A) shall be governed under the rules and
procedures set forth in section 42121(b) of
title 49, United States Code.
(B) EXCEPTION.—Notification made under section
42121(b)(1) of title 49, United States Code,
shall be made to the person named in the
complaint and to the employer.

App.96a

(C) Burdens OF PROOF.—An action brought under
paragraph (l)(B) shall be governed by the
legal burdens of proof set forth in section
42121(b) of title 49, United States Code.
(D) Statute of limitations.—An action under
paragraph (l) shall be commenced not later
than 180 days after the date on which the
violation occurs, or after the date on which
the employee became aware of the violation.
(E) JURY TRIAL.—A party to an action brought
under paragraph (l)(B) shall be entitled to
trial by jury.
(c) Remedies.—
(1) In GENERAL.—An employee prevailing in any
action under subsection (b)(l) shall be entitled to
all relief necessary to make the employee whole.
(2) Compensatory damages.—Relief for any
action under paragraph (l) shall include—
(A) reinstatement with the same seniority status
that the employee would have had, but for
the discrimination;
(B) the amount of back pay, with interest; and
(C) compensation for any special damages sus­
tained as a result of the discrimination,
including litigation costs, expert witness fees,
and reasonable attorney fees.
(d) Rights Retained by Employee.—
Nothing in this section shall be deemed to
diminish the rights, privileges, or remedies of

App.97a

any employee under any Federal or State law,
or under any collective bargaining agreement.
(e) Non-enforceability of Certain Provisions Waiv­
ing Rights and Remedies or Requiring
Arbitration of Disputes.—
(1) Waiver of rights and remedies.—The rights
and remedies provided for in this section may
not be waived by any agreement, policy form, or
condition of employment, including by a predis­
pute arbitration agreement.
(2) Predispute arbitration agreements.—No
predispute arbitration agreement shall be valid
or enforceable, if the agreement requires arbitra­
tion of a dispute arising under this section.
28 U.S.C. § 2072-Rules of Procedure and Evidence;
Power to Prescribe
(a) The Supreme Court shall have the power to
prescribe general rules of practice and procedure
and rules of evidence for cases in the United
States district courts (including proceedings before
magistrate judges thereof) and courts of appeals.
(b) Such rules shall not abridge, enlarge or modify
any substantive right. All laws in conflict with
such rules shall be of no further force or effect
after such rules have taken effect.
(c) Such rules may define when a ruling of a
district court is final for the purposes of appeal
under section 1291 of this title.

App.98a

49 U.S.C. § 42121(4)(A)
(4) Review.—
(A) Appeal to Court of Appeals.—Any person
adversely affected or aggrieved by an order issued
under paragraph (3) may obtain review of the
order in the United States Court of Appeals for
the circuit in which the violation, with respect to
which the order was issued, allegedly occurred
or the circuit in which the complainant resided on
the date of such violation. The petition for review
must be filed not later than 60 days after the date
of the issuance of the final order of the Secretary
of Labor. Review shall conform to chapter 7 of title
5, United States Code. The commencement of pro­
ceedings under this subparagraph shall not, unless
ordered by the court, operate as a stay of the order.
29 C.F.R. 1980.109-Decision and orders of the
administrative law judge
(a) The decision of the administrative law judge
will contain appropriate findings, conclusions,
and an order pertaining to the remedies provided
in paragraph (b) of this section, as appropriate.
A determination that a violation has occurred may
only be made if the complainant has demonstrated
that protected behavior or conduct was a contri­
buting factor in the unfavorable personnel action
alleged in the complaint. Relief may not be ordered
if the named person demonstrates by clear and
convincing evidence that it would have taken the
same unfavorable personnel action in the absence
of any protected behavior. Neither the Assistant
Secretary’s determination to dismiss a complaint
without completing an investigation pursuant to

App.99a

§ 1980.104(b) nor the Assistant Secretary’s deter­
mination to proceed with an investigation is
subject to review by the administrative law judge,
and a complaint may not be remanded for the
completion of an investigation or for additional
findings on the basis that a determination to
dismiss was made in error. Rather, if there other­
wise is jurisdiction, the administrative law judge
will hear the case on the merits.
29 C.F.R. 1980.110-Decision and orders of the
Administrative Review Board
(a) Any party desiring to seek review, including
judicial review, of a decision of the administrative
law judge, or a named person alleging that the
complaint was frivolous or brought in bad faith
who seeks an award of attorney’s fees, must file
a written petition for review with the Administra­
tive Review Board (’’the Board”), which has been
delegated the authority to act for the Secretary
and issue final decisions under this part. The
decision of the administrative law judge will
become the final order of the Secretary unless,
pursuant to this section, a petition for review is
timely filed with the Board. The petition for
review must specifically identify the findings,
conclusions or orders to which exception is taken.
Any exception not specifically urged ordinarily
will be deemed to have been waived by the
parties. To be effective, a petition must be filed
within 10 business days of the date of the deci­
sion of the administrative law judge. The date of
the postmark, facsimile transmittal, or e-mail
communication will be considered to be the
date of filing; if the petition is filed in person, by

App.lOOa

hand-delivery or other means, the petition is
considered filed upon receipt. The petition must
be served on all parties and on the Chief Admin­
istrative Law Judge at the time it is filed with
the Board. Copies of the petition for review
and all briefs must be served on the Assistant
Secretary, Occupational Safety and Health Admin­
istration, and on the Associate Solicitor, Division
of Fair Labor Standards, U.S. Department of
Labor, Washington, DC 20210.
(b) If a timely petition for review is filed pursu­
ant to paragraph (a) of this section, the decision
of the administrative law judge will become the
final order of the Secretary unless the Board,
within 30 days of the filing of the petition, issues
an order notifying the parties that the case has
been accepted for review. If a case is accepted for
review, the decision of the administrative law
judge will be inoperative unless and until the
Board issues an order adopting the decision,
except that a preliminary order of reinstatement
will be effective while review is conducted by the
Board, unless the Board grants a motion to stay
the order. The Board will specify the terms under
which any briefs are to be filed. The Board will
review the factual determinations of the admin­
istrative law judge under the substantial evi­
dence standard.
(c) The final decision of the Board shall be
issued within 120 days of the conclusion of the
hearing, which will be deemed to be the conclu­
sion of all proceedings before the administrative
law judge—i.e., 10 business days after the date
of the decision of the administrative law judge

App.lOla

unless a motion for reconsideration has been
filed with the administrative law judge in the
interim. The decision will be served upon all
parties and the Chief Administrative Law Judge
by mail to the last known address. The final
decision will also be served on the Assistant
Secretary, Occupational Safety and Health Admin­
istration, and on the Associate Solicitor, Division
of Fair Labor Standards, U.S. Department of
Labor, Washington, DC 20210, even if the
Assistant Secretary is not a party.
(d) If the Board concludes that the party charged
has violated the law, the final order will order
the party charged to provide all relief necessary
to make the employee whole, including rein­
statement of the complainant to that person’s
former position with the seniority status that
the complainant would have had but for the dis­
crimination, back pay with interest, and com­
pensation for any special damages sustained as
a result of the discrimination, including litiga­
tion costs, expert witness fees, and reasonable
attorney’s fees.
(e) If the Board determines that the named person
has not violated the law, an order will be issued
denying the complaint. If, upon the request of
the named person, the Board determines that a
complaint was frivolous or was brought in bad
faith, the Board may award to the named person
a reasonable attorney’s fee, not exceeding $1,000.

App,102a

29 C.F.R. Part 18 Subpart A
§ 18.10-Scope and purpose.
(a) In GENERAL. These rules govern the procedure
in proceedings before the United States Depart­
ment of Labor, Office of Administrative Law
Judges. They should be construed and adminis­
tered to secure the just, speedy, and inexpensive
determination of every proceeding. To the extent
that these rules may be inconsistent with a
governing statute, regulation, or executive order,
the latter controls. If a specific Department of
Labor regulation governs a proceeding, the provi­
sions of that regulation apply, and these rules
apply to situations not addressed in the governing
regulation. The Federal Rules of Civil Procedure
(FRCP) apply in any situation not provided for or
controlled by these rules, or a governing statute,
regulation, or executive order.
(b) TYPE OF PROCEEDING. Unless the governing
statute, regulation, or executive order prescribes
a different procedure, proceedings follow the
Administrative Procedure Act, 5 U.S.C. 551
through 559.
(c) WAIVER, MODIFICATION, and suspension. Upon
notice to all parties, the presiding judge may
waive, modify, or suspend any rule under this
subpart when doing so will not prejudice a party
and will serve the ends of justice.

App.l03a
Fed. R. Civ. P. 60—Relief from a Judgment or Order
(a) Corrections Based on Clerical Mistakes; Over­
sights and Omissions.
The court may correct a clerical mistake or a mis­
take arising from oversight or omission whenever
one is found in a judgment, order, or other part
of the record. The court may do so on motion or
on its own, with or without notice. But after an
appeal has been docketed in the appellate court
and while it is pending, such a mistake may be
corrected only with the appellate court's leave.
(b) Grounds for Relief from a Final Judgment,
Order, or Proceeding.
On motion and just terms, the court may relieve
a party or its legal representative from a final
judgment, order, or proceeding for the following
reasons:
(1) mistake, inadvertence, surprise, or excusable
neglect;
(2) newly discovered evidence that, with reason­
able diligence, could not have been discovered
in time to move for a new trial under Rule
59(b);
(3) fraud (whether previously called intrinsic or
extrinsic), misrepresentation, or misconduct
by an opposing party;
(4) the judgment is void;
(5) the judgment has been satisfied, released,
or discharged; it is based on an earlier judg­
ment that has been reversed or vacated; or

App.l04a

applying it prospectively is no longer equitable;
or
(6) any other reason that justifies relief.
(c) Timing and Effect of the Motion.
(1) Timing. A motion under Rule 60(b) must be
made within a reasonable time—and for
reasons (l), (2), and (3) no more than a year
after the entry of the judgment or order or
the date of the proceeding.
(2) Effect on Finality. The motion does not affect
the judgment's finality or suspend its opera­
tion.
(d) Other Powers to Grant Relief.
This rule does not limit a court's power to:
(1) entertain an independent action to relieve a
party from a judgment, order, or proceeding;
(2) grant relief under 28 U.S.C. § 1655 to a
defendant who was not personally notified
of the action; or
(3) set aside a judgment for fraud on the court.
(e) Bills and Writs Abolished.
The following are abolished: bills of review, bills
in the nature of bills of review, and writs of coram
nobis, coram vobis, and audita querela.

App.l05a
DEPOSITION OF KEITH GREENE-EXCERPT
(APRIL 27, 2017)
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
COLUMBUS DIVISION
MICHAEL B. BROWN,
Plaintiff,
v.
SYNOVUS FINANCIAL CORPORATION
Defendant.
Civil Action No. 4:16-cv-00249-CDL
[April27, 2017 Transcriptp. 19]
A.

Uh-huh.

Q. And that says, Michael has participated in the
educational opportunities that have been presented
to him in attaining his CPE hours?
A.

Yes.

Q.

And so is it—is it a document that you add things
to throughout the year when you create the
Right Steps form or this specific Right Steps
form?

App.l06a

A.

Would have been when documentation of the
meeting that would have been held in the interim
period.

Q.

And earlier you were saying that there-the eval­
uations can occur throughout the year, so is it—
is it correct to say that on October 26, 2009, you
would have had an evaluation meeting where that
would have come up?

A.

Yes.

Q.

In the next block, it has some—an entry from
May 11, 2009 and October 26, 2009, and then
March 1, 2010. Do you see that?

A.

Yes.

Q.

And you say on March 1, 2010, that Michael made
improvements in completing the work in the
allotted time and he had been taking additional
steps to meet project completion deadlines; is that
right?

MS. CAMPBELL: Dates.
Q.

Oh, I’m sorry. Dates.

A.

Yes.

Q.

In the section that’s marked—the box that’s titled
“leadership,” on March 1, 2010, it says, Michael
has been assisting with preplanning audits since
the time of last review. He has helped to pull
together two sets of finance audits that we have
completed.
And what’s the relationship between that and
leadership skills?

App.l07a

A.

It would be a part of developing a process of
setting out planning the audits, working to get
the audit established, set up.

Q.

And so that was a positive thing that you felt
that Michael had done?

A.

At that time.

Q.

And, in fact, just above that, in December—October
26th of 2009, you seem to indicate that there
were additional things Michael could be doing to
improve his leadership skills; is that fair to say?

A.

Repeat that.

Q.

Is it fair to say that on December—on October
26th of 2009 that you were indicating that Michael
could be doing more to improve his leadership
development skills?

A.

No.

Q.

How would you describe that?

A.

There were issues that were hindering his devel­
opment in leadership skills.

Q.

And what were those issues?

A.

The—as it puts here, his preference to work alone,
that he would go into the work papers and assign
large portions of an audit to himself but rarely
complete them by the given deadlines.

Q.

And when you made the notation on March 1,
2010, did you feel as if those issues had improved?

A.

There was some improvement.

App.l08a

Q.

And if you would turn to page 3 of 5. And this is
a section marked “ACL utilization.” What is ACL
utilization?

A.

ACL is a software that we used as part of the
audit process to perform sampling of large amounts
of data. It has random sample features and other
available sampling methodologies that can be
done on a more automated basis.

Q.

And you indicate on March 1, 2010 that the doc­
umentation audit says improved?

A.

Repeat that.

Q.

You indicated on March 1, 2010 that the docu­
mentation in the audits had improved?

A.

Under ACL utilization?

Q.

Yes.

A.

I don’t see a March 2010.

MS. CAMPBELL: It goes to the next page.
THE WITNESS: Okay. But that’s in a different
section.
Q.

Oh, I apologize. So this is a new section?

A.

Yes.

Q.

I see. I see. Okay. This is, Consistently ensure
high-quality work product?

A.

Correct.

Q.

And in that regard, you felt that Michael had
improved, as of March 1, 2010?

A.

As of March 1, 2010, at the time this was done,
yes, there was improvement.

App.l09a

Q.

As of March 1, 2010 in terms of quality of work
output, you said that Michael’s work typically
exceeds what the department standards address?

A.

I’m sorry. This copy is—I can’t really read—read
the heading of this very well.

MS. CAMPBELL: It said quantity. A. Is it quality or
quantity?
MS. CAMPBELL: It’s quantity.
Q.

It appears to be quantity. The first sentence says
the quantity or amount of work produced.

A.

Okay. This statement there, yes.

Q.

In fact, if you look through Exhibit D, you rated
Michael as a four, exceeds performance, in all
but one category; is that right?

A.

No.

Q.

I’m sorry. How many categories did you rate him
in exceeds performance in?

A.

There appears to be eight.

Q.

So eight out of ten; is that right?

A.

That’s what it appears to be, yes.

Q.

And the two areas that you did not rate him as
exceeds performance, you rated him’ as meets
performance?

A.

That’s what this shows, yes.

Q.

And the scale for these—for—excuse me—this
2009 Right Steps form, is that out of five?

A.

Yes.

App.llOa

Q.

And this is—Exhibit D to your declaration would
have been the last review that you did—excuse
me—last evaluation that you did of Michael
Brown; is that right?

A.

Yes.

Q.

Based on—based on Exhibit D, would you describe
this evaluation to be one of someone who’s a
good performer?

A.

Average.

Q.

And at the time of this Right Steps time period
in March of 2010, who else did you supervise
besides Michael Brown?

A.

Trying to think. Matt Jones was one of the indi­
viduals supervised then. I believe Janeen
Richardson. I can’t remember any others. I know
there are others, but it’s been quite a while back.

Q.

Did you have—did you engage in any progressive
discipline with Matt Jones while you supervised
him?

A.

Not progressive discipline.

Q.

Did you engage in something other than progres­
sive discipline?

A.

Counseling.

Q.

Is that the same type of counseling that you gave
to Mr. Brown?

A.

Yes.

Q.

So nothing in writing? This would have just been
oral counseling?

A.

Mostly, yes.

App.llla

Q.

Did you put some counseling in writing for Mr.
Jones?

A.

Not that I remember.

Q.

Did you indicate counseling-related issues in his
Right Steps evaluation?

A.

If there were issues, I would have, yes.

Q.

But you don’t recall any as you sit here today?

A.

No. I’d have to look at the document to see.

Q.

And Janeen Richardson, did you engage in any
progressive discipline with her?

A.

Mostly would have been verbal.

Q.

Do you recall any written that you would have
done?

A.

None outside of the performance evaluations.

Q.

Have you placed any employees on a performance
improvement plan while you’ve worked at Synovus?

A.

Yes.

Q.

Who?

A.

John Koon, Matthew Vasconcelles.

Q.

And when did you place John Koon on a perform­
ance improvement plan?

A.

I’m not sure of the dates. It would have been
probably in the 2006-7 time frame.

Q.

And Matthew—

A.

Prior to his leaving.

Q.

And Matthew Vasconcelles?

App.ll2a

A.

Trying to think when he left. It would have been
in the year prior to his leaving.

Q.

Was that 2013?

A.

I can’t remember when he—when he left.-

Q.

And why did Matthew Vasconcelles leave?

A.

He took a position at CSB Bank in Atlanta, senior
auditor position.

Q.

And had he completed his performance improve­
ment plan as of the time he did that?

A.

He did.

Q.

Do you know how long it was after he completed
his performance improvement plan that he left?

A.

No.

Q.

With Matthew Vasconcelles’s performance improve­
ment plan, did you submit it to Mr. Cottle to review?

A.

I don’t remember.

Q.

What about for Mr. Koon?

A.

Yes.

Q.

Ever given any written warnings to any employees
ofSynovus?

A.

No.

Q.

Have you ever recommended any employees for
termination from Synovus?

A.

From Synovus, no.

Q.

If you could turn to page 9 of your declaration.

A.

Okay.

App.ll3a

Q.

In paragraph 27, you say that by 2010, you felt
Mr. Brown’s work product was unreliable and did
not match his purported level of training or his
position’s responsibilities at Synovus. Do you see
that?

A.

Yes.

Q.

How long after March 1, 2010 did you supervise
Mr. Brown?

A.

I don’t remember exactly when the change—the
switches occurred.

Q.

But in the next paragraph, it does say in early
2010 that the structure was changed; is that
right?

A.

Yes.

Q.

So did you—do you feel like the Right Steps form
from Exhibit D reflects your concerns that Mr.
Brown’s work product was unreliable?

A.

It showed the inconsistency, yes.

Q.

But you didn’t—you didn’t give him any kind of
performance improvement plan as a result of
that?

A.

I did not, no.

Q.

And is there any reason that you didn’t do that?

A.

My preference is to work directly with the indi­
vidual, attempt to coach them through it. And if
I reach a point where I believe that the coaching
is not getting through, not being received or there’s
no change, then I would move to a performance
plan.

Q.

And if you could go to page 10.

App.ll4a

A.

Okay.

Q.

And paragraph 31, it says that, Although I no
longer directly supervised Mr. Brown after the
first quarter of 2010, I reviewed the performance
improvement plan that Ms. Weekley issued to Mr.
Brown in December 2012 to ensure that it fairly
reflected Mr. Brown’s performance and perform­
ance improvement needs I had observed.
(Brief interruption.)
(Off the record.)
(Court reporter reads back
the last question.)

Q.

(By Mr. Keegan) And that accurately reflects your
testimony in paragraph 31?

A.

Yes.

Q.

And did anyone ask you to review that perform­
ance improvement plan?

A.

Ms. Weekley did.

MS. CAMPBELL: I would note for the record that’s not
the entirety of paragraph 31. Just make that
clear on the record.
MR. KEEGAN: That’s a good point.
Q.

(By Mr. Keegan) And let’s go ahead and get the
rest of it in there. So the last sentence of paragraph
31 is, Ms. Weekley’s assessment was consistent
with the experiences that I had when I supervised
Mr. Brown, and I concurred with her plan to try
to improve his performance.

A.

Yes.

App.ll5a

Q.

And that’s accurate?

A.

Yes.

Q.

Did Ms. Weekley tell you why she wanted you to
review the performance improvement plan?

A.

I don’t remember.

Q.

And at this point, you hadn’t actually supervised
Mr. Brown for at least a year; is that right?

A.

Based on these dates, that would be correct.

Q.

Okay. I don’t have any other questions.

MS. CAMPBELL: We have no questions at this time
either. He will read and sign.
(The deposition of Keith Alan Greene concluded
at 12:56 p.m. on April 27, 2017.)
Reported by:
Lynne C. Fulwood______
Certified Court Reporter

App.ll6a
DEPOSITION OF MICHAEL B. BROWN-EXCERPT
(SEPTEMBER 28, 2015)
IN THE UNITED STATES DEPARTMENT
OF LABOR OFFICE OF
ADMINISTRATIVE LAW JUDGES
MICHAEL B. BROWN,
Petitioner,
v.
SYNOVUS FINANCIAL CORPORATION,
Respondent.
Case No. 2015-SOX-00018
[September28, 2015 Transcriptp. 265]
[...]
. . . matters requiring immediate attention which
is an expression of concern.
Q.

So—

A.

All concerns—the strongest concern that can be
addressed in an audit.

Q.

—is every matter requiring—whatever it is, does
that mean fraud? Every time you have noted
that—

A.

In this case, it did.

App.ll7a

Q.

In this case, it did; but it didn’t say fraud. So—

A.

If you—

Q.

—did you go—did you tell anyone, Ms. Weekley,
Mr. Cottle, Mr. Sawyer, the general counsel, did
you tell any of them that you suspected fraud?

A.

I told—I did that in the work paper.

Q.

Okay. So you didn’t do anything to notify them?

A.

I turned in my work paper.

Q.

Okay. Is that—

A.

If I had not turned in the work paper—

Q.

—Is that something that goes to the general
counsel?

A.

It goes to my supervisor.

Q.

Okay. And under the accounting— internal
accounting—

A.

The—

Q.

—controls—excuse me—an auditing matters
portion of the code of business conduct and
ethics you are supposed to report it to the audit
committee through the general counsel’s office
or if you wish to remain anonymous by calling
the toll-free help line that’s open 24/7.

A.

The first thing I’m supposed to do is to turn the
work in to my supervisors. That’s the first thing
I’m supposed to do, which is what I did.

Q.

That’s what you’re supposed-

A.

The next thing I did was come to work and got
terminated before I could do those—following
the procedures.

App.ll8a

Q.

—Nothing stopped you from calling the 24/7
help line except that you chose not to do it
because you were on vacation.

A.

If you look at the time—if you look at the time of
the work paper—I believe that work paper was
turned in on December 20th by 11 something at
night. And the audit committee was not available
I’m sure—

Q.

Well—

A.

—at 11:20 at night.

Q.

The help line is 24/7.

A.

When did they add that?

Q.

Mr. Brown, that’s in everything you’ve acknow­
ledged and it has—

A.

And how many—

Q.

—the phone numbers.

A.

The—the code of conduct and that acknowledge­
ment—those documents are probably about a
. hundred pages.

Q.

And they’re called to your specific attention on
the acknowledgment themselves.

A.

And they5re buried in—that phone number that
you’re referencing is buried in the 100 or so pages
that are presented as a little box to check
every—every year.

Q.

Well, we’ll see about that. All right. So after you’re
terminated you don’t contact—even at that point
you don’t contact the general counsel’s office or
the help line or HR or any member of management
about your termination, correct? The first time that

App.ll9a

you allege fraud is when you filed the complaint
in this action, correct?
A.

Within the timeframe, yes. don’t know what that
means, within the timeframe, the audit com­
mittee. Again, that work paper was turned in
on October—work papers were turned in on—
work papers were turned in on December the
20th at 11 something and I mentioned that it
was very late at night. And I went on vacation,
came back—well, came back, first day I was
terminated after turning in that work paper.

Q.

Okay.

A.

Before contacting or doing anything in that
policy.

Q.

Well, did you—

A.

Seeing I remember what was in there, all the
almost 180 so pages.

Q.

—So, I’m sorry, did you say assuming I remem­
bered what was in there?

A.

I’m saying that there are approaching a hundred
something pages and then-

Q.

Okay.

A.

—the three documents.

Q.

So you’re not saying you had a plan to call the
audit committee or the general counsel’s office?

A.

I’m saying I was terminated before—before it could
have been done while I was working.

Q.

But nothing—nobody prevented you—
[...]

